<html>
<title> - THE FISCAL YEAR 2000 REPORT TO CONGRESS OF THE PANEL TO ASSESS THE RELIABILITY, SAFETY, AND SECURITY OF THE UNITED STATES NUCLEAR STOCKPILE</title>
<body><pre>[Senate Hearing 107-75]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 107-75
 
  THE FISCAL YEAR 2000 REPORT TO CONGRESS OF THE PANEL TO ASSESS THE 
    RELIABILITY, SAFETY, AND SECURITY OF THE UNITED STATES NUCLEAR 
                               STOCKPILE

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON STRATEGIC

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2001

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
73-367 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
?

  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

STROM THURMOND, South Carolina       CARL LEVIN, Michigan
JOHN McCAIN, Arizona                 EDWARD M. KENNEDY, Massachusetts
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            JOSEPH I. LIEBERMAN, Connecticut
RICK SANTORUM, Pennsylvania          MAX CLELAND, Georgia
PAT ROBERTS, Kansas                  MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               JACK REED, Rhode Island
TIM HUTCHINSON, Arkansas             DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
SUSAN COLLINS, Maine                 E. BENJAMIN NELSON, Nebraska
JIM BUNNING, Kentucky                JEAN CARNAHAN, Missouri
                                     MARK DAYTON, Minnesota

                      Les Brownlee, Staff Director

            David S. Lyles, Staff Director for the Minority

                                 ______

                       Subcommittee on Strategic

                    WAYNE ALLARD, Colorado, Chairman

STROM THURMOND, South Carolina       JACK REED, Rhode Island
BOB SMITH, New Hampshire             ROBERT C. BYRD, West Virginia
JAMES M. INHOFE, Oklahoma            DANIEL K. AKAKA, Hawaii
JEFF SESSIONS, Alabama               BILL NELSON, Florida
                                     E. BENJAMIN NELSON, Nebraska

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

  The Fiscal Year 2000 Report to Congress of the Panel to Assess the 
    Reliability, Safety, and Security of the United States Nuclear 
                               Stockpile

                             march 19, 2001

                                                                   Page

Schlesinger, Hon. James R., Member, Panel to Assess the 
  Reliability, Safety, and Security of the United States Nuclear 
  Stockpile......................................................     3
Guidice, Stephen, Former Assistant Manager for National Defense 
  Programs, DOE, Albuquerque.....................................     8

                                 (iii)


  THE FISCAL YEAR 2000 REPORT TO CONGRESS OF THE PANEL TO ASSESS THE 
    RELIABILITY, SAFETY, AND SECURITY OF THE UNITED STATES NUCLEAR 
                               STOCKPILE

                              ----------                              


                         MONDAY, MARCH 19, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-222, Russell Senate Office Building, Senator Wayne 
Allard (chairman of the subcommittee) presiding.
    Committee members present: Senators Allard, Thurmond, Reed, 
Akaka, Nelson, and Dayton.
    Professional staff members present: Mary Alice A. Hayward, 
George W. Lauffer, Eric H. Thoemmes, and L. David Cherington.
    Minority staff members present: Madelyn R. Creedon, 
minority counsel, and Richard W. Fieldhouse, professional staff 
member.
    Staff assistants present: Thomas C. Moore and Jennifer L. 
Naccari.
    Committee members' assistants present: John Gastright, 
assistant to Senator Thurmond; Douglas Flanders, assistant to 
Senator Allard; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi and Ross Kawakami, assistants to Senator 
Akaka; Peter A. Contostavlos, assistant to Senator Bill Nelson; 
Sheila Murphy and Eric Pierce, assistants to Senator Ben 
Nelson; and Brady King, assistant to Senator Dayton.

      OPENING STATEMENT OF SENATOR WAYNE ALLARD, CHAIRMAN

    Senator Allard. I will now call the Strategic Subcommittee 
to order. The subcommittee meets today to hear from the panel 
to Assess the Reliability, Safety, and Security of the United 
States Nuclear Stockpile.
    Although the panel's chairman, Dr. John Foster, could not 
be here today, we are pleased to hear from two very 
distinguished members of the panel, Dr. James R. Schlesinger 
and Mr. Steven J. Guidice.
    The panel was established pursuant to the National Defense 
Authorization Act for Fiscal Year 1999. This committee strongly 
supports and commends the work the panel has undertaken and the 
two reports it has issued. The law mandates that the panel 
submit to Congress an annual report for 3 years setting forth 
its findings and conclusions. This report results from the 
panel's review and assessment of the Department of Energy's 
annual nuclear weapons certification process and the ability of 
the Secretary of Energy to set forth clear criteria for the 
performance of science-based stockpile stewardship.
    I would like to commend all members of the panel for their 
comprehensive professional work. Many of the problems 
identified by the panel's report have troubled this 
subcommittee for a number of years.
    The Strategic Subcommittee is responsible for authorizing 
two-thirds of the DOE budget, the bulk of which is in programs 
now under the National Nuclear Security Administration, or the 
NNSA. The panel's report highlights the increasingly complex 
and difficult task of supporting our Nation's deterrent 
capability absent the ability to conduct underground nuclear 
testing. I am particularly concerned by the large number of 
maintenance problems now confronting the many facilities in the 
nuclear weapons complex and how these problems will affect 
DOE's abilities to successfully refurbish and maintain our 
present stockpile.
    Again, I thank the members of the panel for their hard 
work. I understand that Dr. Schlesinger will lead off with an 
opening statement, and I leave it up to you to decide how to 
present the panel's findings and recommendations.
    Before recognizing our witnesses, I would like to yield a 
moment here to Senator Reed for any statement that he may wish 
to make.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you, Mr. Chairman. I welcome Dr. 
Schlesinger and also Mr. Guidice today, and I join with Senator 
Allard in welcoming you to the Strategic Subcommittee this 
afternoon to discuss the second in a series of three annual 
reports from the panel to assess the reliability, safety, and 
security of the United States stockpile and, as the chairman 
indicated, this is the first meeting of the Strategic 
Subcommittee this year.
    Maintaining the Nation's nuclear stockpile so that it 
remains safe, secure, and reliable without underground nuclear 
weapons testing presents, as the report before us today 
suggests, significant technical challenges. The panel was 
created by Congress in the Fiscal Year 1999 Defense 
Authorization Act to review and assess the annual process for 
certifying stockpile safety and reliability, the long-term 
accuracy of that process, and the adequacy of the criteria 
provided for the Department of Energy for evaluating its 
science-based stockpile stewardship program.
    In undertaking the mandate to review the annual 
certification process, the panel took on the additional task of 
reviewing whether the Nation can sustain sufficient confidence 
in the safety and reliability of its nuclear deterrence while 
complying with the terms of the Comprehensive Test Ban Treaty. 
This more substantive review has broadened the scope of the 
panel's recommendations. As a result, this year's report 
continues the panel's effort, initiated last year, to assess 
the stockpile stewardship program, as well as the annual 
certification process. This year's report makes nine 
recommendations. We look forward to hearing from our witnesses 
this afternoon and assessing these recommendations.
    The DOD and the DOE are in the early stages of an effort to 
review strategic nuclear systems generally. This review, and 
the nuclear posture review that must be completed in December, 
are important to shape nuclear deterrence policy and strategy 
and the stockpile to support it. As a result, I hope that this 
is just the first of several hearings I believe the 
subcommittee should hold on the subject of nuclear deterrence, 
nuclear warheads and strategic delivery systems.
    Thank you very much, Mr. Chairman.
    Senator Allard. OK, I would like to be rather informal in 
this hearing if we can possibly get by with it, and just go 
ahead and go right to the testimony from the witnesses, and Dr. 
Schlesinger, we look forward to hearing your comments.

STATEMENT OF HON. JAMES R. SCHLESINGER, MEMBER, PANEL TO ASSESS 
  THE RELIABILITY, SAFETY, AND SECURITY OF THE UNITED STATES 
                       NUCLEAR STOCKPILE

    Dr. Schlesinger. Thank you, Mr. Chairman, Senator Reed, 
other members of the committee. I am pleased to have you here. 
Let me just put my statement into the record and make a few 
general points.
    As you have indicated, Mr. Chairman, this panel was 
established in 1999 and authorized to submit three annual 
reports. This is the second report. Our next report will be 
focused upon the readiness for the nuclear testing in Nevada. 
Our first report focused primarily on conditions in the 
laboratories, which I regret to say in some ways has been 
worsened by the events of recent years. There are signs of 
improvement, but we are going to have to move ahead.
    This particular report focuses on the infrastructure of the 
Department of Energy. Many of those facilities are 50 years 
old. When I was chairman of the AEC 30 years ago, and trying to 
extract maintenance money, it was very hard to come by, and 
those facilities are in the process of deteriorating.
    Mr. Guidice, who was the head of the weapons program at our 
operations office in Albuquerque, will discuss these defects 
and deterioration in detail, and I will just mention a few 
examples at the close, but the first point that I would like to 
make is that this must be judged in terms of the repeated 
commitments of this Nation to sustain a nuclear deterrent that 
is credible to our potential foes across a whole spectrum of 
threats, and that means that they must see our weapons 
themselves as well as the weapons carriers to be reliable.
    I have thrown in a few statements, statements by the Senate 
in the past as it reviewed the arms control agreements, 
statements by President Clinton when he put forward the 
proposal for the Comprehensive Test Ban Treaty, that under all 
circumstances we would regard the maintenance of our strategic 
nuclear deterrent as in the supreme national interest.
    Our problem as a panel is that, having heard these firm 
commitments, there must be the resources to sustain those 
commitments, and there we get a little bit worried. I must say, 
Mr. Chairman, that the job of the panel is not to find the 
resources. That is your difficult task. Our panel is simply to 
point out what is happening both to the infrastructure and to 
the stockpile stewardship program.
    The infrastructure is deteriorating, the stockpile 
stewardship program is slipping, and so we have a choice as a 
Nation whether we will provide the resources to sustain the 
deterrent, as we have repeatedly committed ourselves to do, or 
merely pay lip service to that commitment and watch it further 
deteriorate.
    The problem with regard to the infrastructure, Mr. 
Chairman, is not simply a problem of the size of the stockpile. 
There are a whole range of possible levels of the stockpile. 
But irrespective of the size of the stockpile, we will need to 
revive the infrastructure.
    Mr. Guidice will explain this in great detail shortly, but 
I just cite two things. First, Mr. Chairman, Rocky Flats was 
shut down 12 years ago. Since that time, the United States has 
not been able to produce a primary for a nuclear weapon. We 
have a little effort going on at Los Alamos, but we are 
dependent upon existing primaries, and alone amongst the 
nuclear powers of this world, we cannot today produce a nuclear 
weapon.
    Second, we have a display over here of conditions at Y-12 
at Oak Ridge. What it tells us basically is the deterioration 
of those facilities. The workers in one of those facilities are 
obliged to wear hard hats because of the crumbling of the roof 
above their heads, and as a consequence the degraded capability 
of the country to produce secondaries for nuclear weapons. So 
if we want to be in a position to fix some defect that may be 
discovered in one of the classes of our weapons, we must 
upgrade the infrastructure.
    Mr. Chairman, let me stop there and turn it over to Mr. 
Guidice, and he, as I said, was responsible for weapons 
production at Albuquerque, and he knows this program in far 
greater detail than do I.
    [The prepared statement of Dr. Schlesinger follows:]

                Prepared Statement by James Schlesinger

    Mr. Chairman, Members of the Committee. In 1999, Congress 
established the Panel to Assess the Reliability, Safety, and Security 
of the United States Nuclear Stockpile, chaired by Dr. John Foster. We 
issued our second report in February, and I offer it to you for the 
record.
    I am here today with my fellow Panel member--Mr. Steve Guidice. In 
a few moments, he will provide a detailed review of our Panel's 
principal findings and recommendations. Prior to serving on this Panel, 
Mr. Guidice had a distinguished career of public service, to include 
being director of production and quality for the weapons program.
    I shall begin our testimony today. I have a few brief observations 
on some of the major factors that have shaped our work.
    The preeminent consideration shaping this Panel's work is our 
commitment to meeting the Nation's security requirements. It seems to 
this Panel that the centrality of deterrence to the Nation's security 
and military strategies dictates that we sustain a safe, credible 
nuclear stockpile. This view is not unique to us. The Nation's most 
senior government officials--be they civilians in the executive branch 
or the Congress, or be they in the military--are on the record 
declaring that a safe and reliable stockpile is a supreme national 
interest.
---------------------------------------------------------------------------
     This commitment was underscored in President Clinton statement 
when he proposed ratification of the Comprehensive Test Ban Treaty: 
``The U.S. regards continued high confidence in the safety and 
reliability of its nuclear weapons stockpile as a matter affecting the 
`supreme interests of the country. . . .'' William J. Clinton, Letter 
of Transmittal (Comprehensive Nuclear Test Ban Treaty), The White 
House, September 22, 1997. This commitment was also central in the 
Senate's advice and consent to the START II Treaty--``The Senate 
declares that the United States is committed to ensuring the safety, 
reliability, and performance of its nuclear forces . . .'' Resolution 
of Ratification, January 26, 1996, (c) Declarations (12).
---------------------------------------------------------------------------
    Mr. Chairman, the nuclear deterrent is a supreme national interest; 
the weapons stockpile and its supporting programs should be managed 
accordingly.
    A second consideration that has shaped our work is our belief that 
sustaining confidence requires a balance of capabilities in our plants 
and laboratories. In recent years, we lost focus on the weapons complex 
capabilities needed for the surveillance, assessments, and maintenance 
of existing warheads. In the absence of new production, we also did not 
exercised the integrated design, engineering, and manufacturing 
capabilities needed to address the inevitable problems that will arise 
as the stockpile ages.
    Confidence requires that we re-establish, strengthen, and sustain 
these core weapons complex capabilities. We already see worrisome signs 
of deterioration in some nuclear components.
    These capabilities are needed whether or not the Nation chooses to 
continue the current unilateral moratorium on underground nuclear 
testing. I personally believe the Senate made the correct decision when 
it decided, by a considerable margin, against supporting the CTBT. I 
remain concerned that the U.S. could lock itself into a situation where 
we cause confidence in our stockpile to erode, while other nations 
continue to develop (and perhaps secretly test) new weapons. I believe 
that a different outcome on the treaty might have been possible if the 
proposed test limitations had a limited duration or allowed a limited 
amount of testing at very low yields--a few kilotons--to allow us to 
revalidate the enduring stockpile. Be that as it may, I want to 
emphasize that we are here today to talk about basic, core capabilities 
that will be needed to support nuclear deterrence regardless of future 
decisions on testing.
    A final consideration involves the size of the stockpile. Although 
the Panel was not tasked to develop recommendations on a desirable size 
for the stockpile, we would counsel that the debate on this topic must 
accurately reflect the implications for the weapons complex. Let me say 
it plainly: Cutting the stockpile will not save much on the size and 
cost of the weapons complex. So long as we keep more than a handful of 
weapons, there are threshold levels of capabilities in the plants and 
laboratories that will be needed to maintain the stockpile, regardless 
of its size.
    As Steve Guidice will tell you, this Panel is deeply concerned by 
the path the weapons program has taken in recent years.
    The Nation has grossly under-invested in the weapons complex. So, 
now we have 40- and 50-year-old buildings, many of which are on the 
verge of failure:

        <bullet> In one building at Y-12, workers wear hardhats--not 
        because their work is dangerous, but to protect themselves from 
        chunks of concrete falling from the ceiling above them. This, 
        in an essential nuclear facility. Elsewhere at Y-12, vital 
        nuclear operations unique to that facility have been shut down 
        for safety reasons since 1994. Y-12 has been forced to store 
        nuclear waste products since then. This is an approach that is 
        fraught with risks and future problems.
        <bullet> Rocky Flats was shut down 12 years ago, and we still 
        have no capability to produce certified weapon primaries. Last 
        year we recommended that DOE get started on establishing an 
        adequate national facility. Not until Congress acted to provide 
        seed money did DOD begin a low-level of conceptual design work.

    It troubles this Panel to report that portions of the weapons 
complex infrastructure are defective and that the production 
capabilities that remain are fragile. We see an increasingly urgent 
need for a coherent vision, comprehensive plan, and programmatic 
commitment to reverse these adverse trends. Where is this vision? If 
action is not taken soon, I believe a crisis in the weapons program is 
inevitable.
    We strongly support the efforts of this Committee to identify and 
implement the program needed to sustain our confidence in a safe and 
reliable weapons stockpile. Steve will summarize several of the 
specific recommendations we commend for your action.

    Senator Allard. Before you go on, and without objection, I 
will make the executive summary of the report a part of the 
record at this point, and we will go ahead with Mr. Guidice.
    [The executive summary of the report is printed here. The 
full report is retained in committee files.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Allard. Go ahead.

  STATEMENT OF STEPHEN GUIDICE, FORMER ASSISTANT MANAGER FOR 
          NATIONAL DEFENSE PROGRAMS, DOE, ALBUQUERQUE

    Mr. Guidice. I also have written testimony, but what I was 
going to do is step through the report and its recommendations.
    Senator Allard. Well, we will make your written testimony a 
part of the full record of the committee. Without objection, so 
ordered.
    Dr. Guidice. I will step very quickly just through the 
perfunctory of who is on the panel. Dr. Agnew, Dr. Foster, Dr. 
Gold, Secretary Schlesinger and myself, and General Habinger 
who has since moved on to the Department of Energy. Our 
advisors are the heads of the weapons programs at the three 
laboratories, and General Welch from IDA.
    This was the actual tasking: Review the annual 
certification process, and look at the long-term adequacy of 
that process. We have chosen to really focus on the long term 
adequacy of the process--the stockpile has been certified--and 
what is being done right now to certify the stockpile is 
adequate. We have no reason to question it. But we are trying 
to look at the long-term. Right now, stockpile certification is 
kind of looking backwards at what was the data from yesterday, 
rather than looking towards what is going to happen in the next 
5 to 10 years.
    We were also asked to look at the criteria. Congress 
requested our view on the criteria for stewardship tools, and 
we will speak about that in more detail.
    It is not all bad news. We are encouraged by the fact that 
there is an NNSA, up and starting to run. We do see technical 
progress in the stewardship program. We are meeting most 
production demands, but one has to realize how very modest they 
are in comparison with what we may be faced with doing in the 
next 5, 10 years, and we are focused on that, and I will talk 
more about that.
    We are encouraged. We see STRATCOM developing their portion 
of the certification process, making it more and more rigorous 
to make sure that the Government does get an answer, a good 
answer each year on whether we need to test or not.
    On the less than positive side, there is enough evidence of 
high priority programs being delayed. We do see all the 
stewardship milestones, the majority of them moving into the 
future for different reasons, some technical, some budgetary. 
We still do not see a true connection between the Department of 
Energy and the Department of Defense requirements, and we are 
hopeful that the processes that are about to occur on relooking 
at the Nuclear Posture Review and what we actually need in the 
future will help that, but there is still not a tight linkage 
there.
    The stockpile is aging, and we have plenty of evidence in 
the record that we do not have the capability at this time to 
repair it. The question is, will we be ready in the next 5 to 
10 years to do that job.
    Dr. Schlesinger talked about the condition of the 
production complex. We did go out there, and we did look, as 
have many others, and we were alarmed at what we saw, but we 
were even more alarmed that there was no process to reverse it, 
and no plan to reverse it.
    There is a problem with morale in the laboratories, with 
all the safety and security issues that have occurred. It does 
affect the new generation of stockpile stewards and their 
willingness to take on this responsibility, and there is a 
tendency for DOD to lose focus on this mission.
    We did make nine recommendations. Quickly--we do have one 
on the restoration of the production complex. I am going to go 
through each one of these in detail. We do have one on stopping 
the slippage on the stockpile life extension programs, we have 
a third on focused on surveillance, which we believe is first 
among equals in this program. That is our looking glass into 
the future, and we believe it needs to have a very high 
priority in the program.
    We have looked at the assessment tools and processes, and 
we continue to see those slip as well.
    We have looked at the annual certification process, and 
while there is no reason to question the actual certification 
of the stockpile today, it is worrisome that a lot of 
information about the future is not included in that process, 
and that is why we have recommended to broaden it.
    We have a few recommendations regarding the NNSA management 
in defining laboratory missions and how the laboratory should 
operate these days and, of course, there has been for at least 
a decade a number of committees and panels that have reviewed 
the Department of Energy management processes. We would like to 
see some of the improvements actually be implemented.
    We make a recommendation on plans, programs, and budgets. 
The 1-year mentality for budget simply will not work for this 
program in the long run. We are hopeful that we will get a 
multiyear budget review out of the Department of Energy and the 
NNSA.
    The last two recommendations concern issues we have looked 
at lightly this year and will look at more heavily next year: 
that is DOD's role in being a customer and also the issue of 
test readiness, and the way it is structured right now.
    In fact, our first meeting this year will be out at the 
Nevada Test Site in early April to go over the readiness 
posture.
    Now I will step in more detail through the recommendations. 
These are the nine recommendations.
    We saw no plan to reverse the decline. To some degree 
historically it is my personal opinion that the nuclear weapons 
program has always been underfunded as far as capital and 
maintenance. But it was more troubling that there was not a 
plan to rectify it. So we think a 10-year plan is appropriate, 
given the magnitude of what we see out there, which is roughly 
a $700 to $800 million backlog of maintenance, critical 
maintenance, and then $300 to $500 million per annum in 
replacing some of that infrastructure, which is just frankly 
too old to try to keep patching up.
    When buildings reach 40 to 50 years, their decay becomes 
somewhat exponential and not linear any more, and therefore in 
some cases we are just going to have to bite the bullet and 
say, I cannot keep pouring money into this place, I have to 
build a smaller, more modern facility appropriate to the 
stockpile, and Oak Ridge may be the prime candidate for that 
type of philosophy.
    Pantex and Kansas City, the other two major production 
plants, and Savannah River to a lesser extent, are not in that 
kind of shape.
    As Dr. Schlesinger said, we shut down Rocky Flats 
permanently quite some time ago, and the United States still 
does not have the capability to build a new pit, which is the 
plutonium component and the first stage of all of our nuclear 
weapons. What we heard was well, it is not a problem today, and 
so we will kind of keep kicking the can down the road a ways, 
and yet we also know that it will take probably 10 to 15 years 
to build a facility to do this, on whatever scale and whatever 
location you choose.
    So our feeling was, you need to get on with the conceptual 
design of what this plant is going to look like and what its 
capacity ought to be, sized for the type of stockpile that we 
plan to keep, and a lot of good work could be done at fairly 
low expense prior to final design of that plant before you 
actually get to the high resource levels of investment.
    We added a recommendation on quality processes. That is 
what the six-sigma notation is. Various members of the panel 
have had experience in this, and know the benefit of having a 
true quality program in design, development, and production, so 
we wanted to lend an endorsement to the NNSA in making that 
part of their approach to the program.
    One of the problems is that the complex is trying to manage 
people and facilities without a precise definition of the work 
that is going to use those facilities. DOE keeps pushing off 
the stockpile life extensions for the weapons, which is the 
core work yet it is still trying to maintain facilities and 
people, and we believe that that work really helps you figure 
out what buildings you need to repair and how many people you 
need, so we would like that work not to continue to be slipped, 
because what we are losing is the opportunity to train the new 
generation of stewards.
    If you look at where the stockpile life extensions programs 
currently are as far as getting into production, they are still 
several years in the distance. We stopped building weapons in 
1991, and essentially we also stopped designing weapons about 
that time. All the new weapons beyond the W88 Trident Warhead 
were canceled, so we have now gone virtually a decade without 
doing any real work in the integrated design, fabrication, and 
certification of nuclear weapons. If we continue to push that 
out, we will not be able to transfer the skills to the new 
generation of people. They will be untested by the time that 
they have to actually perform this work on the stockpile.
    Where you are not doing direct stockpile life extension 
work on an individual weapon, there needs to be a production 
readiness campaign that fills in the gap of the technologies 
that will be needed at some time in the future. When the cold 
war ended, we did make an attempt at doing that: identifying 
all of the technologies that would be in our weapons and seeing 
what we needed to actually work on, versus what capabilities we 
needed to maintain.
    When we looked at it this time, is improving, but we did 
not see anybody taking an integrated view that these weapons 
represent some number of technologies. My recollection is that 
when we did it in the early nineties we different categories, 
and you just cannot let them evaporate, or else you will not be 
able to repair your weapons when it comes time to do so.
    The last bullet on here is kind of controversial, and it 
got some attention in last year's report--about designing 
alternative robust warheads, in view of the National policy of 
no new weapons. But you have to realize the potential effects 
of accumulated changes to the very sophisticated weapons we 
have right now--some of which have very thin performance 
margins because you are trading off safety of the weapon 
against reliability and the use of nuclear materials. So you 
want it to be as safe as possible, which means use as little 
nuclear material as you can, but you also want it to work when 
required, and you are trying to make that balance.
    It may turn out that in the future the U.S. would feel more 
comfortable and more confident in a simpler design warhead than 
the high-performance warheads that we have right now, so we do 
not think that you should abandon study of that issue. You may 
want to make that trade in the future.
    Surveillance we kind of feel is first among equals. We have 
always had a robust surveillance program for the nuclear 
weapons, but it has always been based on the fact that we are 
turning the weapons over fairly quickly, 8 to 10 years. A new 
generation of weapons.
    While we surveilled them we never gave ourselves the 
opportunity to exactly know where the end of the ``bathtub 
curve'' is on the failure probability. Things will go along at 
a certain rate, and then when they age to a certain point, the 
failure rate goes up.
    We never allowed this--just happenstance, the way the 
program was formed--we never allowed ourselves to find out 
where that was, so surveillance today has to be more forward-
looking to give us advanced warning a greater distance into the 
future about the effectiveness of the stockpile.
    Therefore, we used to do random sampling of all the weapons 
in the stockpile. We still believe in random sampling, but we 
think you need to rethink about taking additional samples based 
on day-to-day needs that are peculiar to different weapons 
based on their history, so we want a more flexible approach, a 
more comprehensive approach. Yu could tailor a surveillance 
program more to a particular weapon's defect history or 
susceptibility to aging.
    Also, we think there are high-leverage technologies. 
Currently, for each weapon type in the weapons stockpile, we 
generally take about 10 or 11 weapons back each year, to 
Pantex, and disassemble them. Right now, of that 10 or 11, only 
one or two weapons get their nuclear components destructively 
tested. We believe by putting in technologies at Pantex like a 
variation on what is commonly called a CT scan that for certain 
types of defectiveness we can look inside of these weapons 
without having to take them apart and increase our data base 
and our knowledge about the nuclear components in those 
weapons.
    That is not very expensive to do, but it provides you a 
great deal more insight into the character of your stockpile, 
and so we would like to see those things pushed hard and 
developed as quickly as possible.
    As far as the tools and the processes for future 
certification, we see the schedules for all the campaigns 
pertaining to weapons' primary and secondary performance 
slipping farther into the future. Again, you have the same 
problem. You have still a reasonable number of experienced 
people who have done this job trying to train people who have 
not, and the tools that they will need under a no-testing 
environment are much more sophisticated than we had before. Yet 
we keep seeing their completion all moving farther into the 
future.
    Congress did ask for a report from DOE on the criteria for 
the tools. We believe that DOE did a good first cut at the 
technical part of that. What do these machines have to do? Why 
do they have to do it? We believe that this needs to continue 
to be developed each year as we learn more about the tools that 
we need. But the problem with it is we do not see what the 
mechanism is to make it happen. What I will call the program 
management aspects of it: how you plan it, budget it, have 
multiyear milestones, and how you hit those milestones. So 
while the technical content of what these tools ought to do is 
fairly well-defined, how you are going to make it happen 
concerns us. We hope that comes from an improvement in the 
budget and planning processes that Congress has asked for.
    As far as the annual certification process, we see the 
stockpile assessment team (SAT) from STRATCOM become better and 
better. They are very capable people and we respect their 
opinions.
    We are trying to make a point on this slide about the 
stockpile. The way these weapons were developed, a nuclear 
laboratory owned them. It was either a Los Alamos weapon or a 
Livermore weapon. Well, eventually here we are going to be down 
to about seven weapon types in the enduring stockpile, and we 
believe all three laboratories need to own those weapons, that 
all three of them ought to be certifying that they are safe and 
reliable, and we would like to see the processes developed to 
enable that. We think that today that the absence of testing 
requires that Los Alamos not completely own the W88. In terms 
of certification we believe, for instance, Livermore ought to 
have a say in certifying that weapon.
    We were concerned about the reporting process for 
certification, unclassified letters. We could not quite 
understand how that could lead to a system whereby you can 
actually get out on the table what the issue is, and so we 
recommended, and Congress agreed, that we should classify the 
top level certifications.
    We believe that beyond saying that the weapon works today, 
in many cases what we are really saying is, we do not know of 
any reason why it does not work, and for a lot of aspects of 
this program, you have to be careful to understand that 
distinction.
    For instance, pit life is one that I would throw in that 
same category. When somebody says I think a plutonium pit will 
last 60 years, what they are really saying is, I do not really 
know of any reason why it will not last 60 years. That is a 
different answer.
    So we want to broaden certification to be more forward-
looking and give an assessment to the Government about where we 
think these people and facilities are going to be 5, 10 years 
in advance. We do not want to water down the technical process 
that is going on that says that W88 is fine, but we think the 
Government needs more than that answer.
    As far as NNSA is concerned, and the low morale, we believe 
that the Baker Hamilton report is sensible. We think people 
ought to follow that, and we did not try to go in any more 
depth than that on the particular issue of security.
    We still believe it is very important for people to 
reinforce the mission. We had an opportunity to interview the 
new generation of stockpile stewards, the 30, 35-year-olds. It 
is very important to them that they believe that they are 
working on something important, and so the mission and how it 
is characterized by the Government is very important. The best 
and brightest always have other opportunities, and they need to 
be told why they are doing it especially when they have this 
overburden of other issues like security being laid on top, in 
a sometimes nonproductive way.
    We think that Congress' restoration of the LDRD was the 
right thing to do. We do believe lab directors need the 
flexibility to attract talent LDRD as leading edge technology 
is a good way to do that. We think you did the right thing.
    Here again, we are reinforcing roles and responsibilities 
for the stockpile. It is a national responsibility. Weapons 
should not be owned by one nuclear laboratory or the other.
    We think in the end, if stewardship is all about confidence 
in the people, the technical people who are making the 
judgments about these weapons, then we have to find ways for 
them to have constructive competition. We see in some cases 
programs like Dual Revalidation, which we thought was a good 
process for evaluating the condition of a weapon, we see it 
sometimes abandoned for what we believe the wrong reasons. The 
wrong reason is, it was too hard to do.
    Well, why was it too hard to do? Well, part of the energy 
lost had to do with things other than technical aspects of the 
program, so we think it is important for the laboratories to 
find ways to constructively compete on this certification issue 
and their responsibility for the weapons.
    I will speak personally here. Having done the job of going 
from design to development to production and surveillance, when 
I look at the stockpile stewardship program today I do not 
really see any missing technical elements. There is not a piece 
of the program missing. What I see missing are the processes 
for balancing all of those things. In the initial stages of the 
stockpile stewardship program we initially had to focus on the 
issue of no nuclear testing and on the other tools we needed 
for above-ground experiments and computing.
    I think it is time to go back and look at the other end of 
that, and look at the other things that we do in balancing out 
the program like the design, development, and production 
aspects of it.
    What most people do not realize is that most of the very 
large technical effort was not devoted to nuclear testing. 
There is a huge number of skills that are required to deal with 
these weapons. The bulk of what the integrated laboratory and 
construction complex did that has been atrophying since the 
early nineties. So we are looking at a little bit more balance, 
not that the tools are not important. They are, but we are 
looking for a little bit more balance in the program.
    We are going to spend a little bit more time this year on 
this issue of Dual Revalidation versus baselining. The 
Department has proposed baselining. We are not quite sure, it 
looks like it has too little rigor, or less rigor than we would 
like to see in the program, and so we will look at that in a 
little more depth last year. The roles and responsibilities 
thing is a decade old. Some day I wish it would go away.
    On the multiyear program and budget, we made a 
recommendation. We would like to see surveillance treated as a 
first among equals--very high leverage potential there for 
helping us through managing through the situation. We want to 
see the life extension program put together. But all of this 
balancing and moving forward cannot be done with a year-to-year 
budget outlook. It needs at least a 5-year look, and hopefully 
as the NNSA develops, it will provide you all the confidence to 
restore some of the flexibility to them to manage this complex 
program.
    I will not spend very much time on DOD, except to say we 
are going to do more of that this year. We really do think 
there needs to be a focus on this program and a spokesman for 
this program in the Pentagon of helping coordinate these 
requirements. You can possibly save yourself a lot of trouble 
and money by being closely coordinated with DOD, operational 
fixes may be suitable to problems that develop with the 
weapons--so that's an added reason for being well coordinated.
    We have looked briefly at DTRA, Defense Threat Reduction 
Agency. Hostile environments or vulnerability requirements are 
still in the stockpile. To target sequences for weapons. It is 
an issue that needs to be paid attention to, and we will look 
into that in a little bit more depth this coming year.
    Lastly, another fairly controversial issue this year, is 
the issue of test readiness. The members of the panel have very 
diverse backgrounds, but I think we all agree that when 
somebody says it will take 2 to 3 years to run a nuclear test, 
that does not make any sense to us. That is not the way things 
are likely to happen. It will work for certain types of 
problems. But that type of posture will not work for problems 
that we have already experienced, including one that I had to 
do about a decade ago.
    So we are going to look at the test posture. What does it 
really mean? Are there simple, smart things that you could do 
to give more flexibility to the Government to act more promptly 
in case there was a need to test?
    As far as next steps for this year, we will again continue 
working with the labs and plants. We will review test readiness 
in DTRA, continue to observe the annual certification process, 
look at the tools, see how the programming develops, the 5-year 
multiyear budget approach, and monitor progress on the actual 
investment that is going into the facilities.
    The last thing which is new in our final year that we would 
like to leave for Congress is a set of expectations or 
indicators on how to judge the health of this program going 
into the future. We would like to be able to identify for you 
what parameters you ought to consider in order to judge whether 
the program is healthy enough that is, in summary, the report.
    I can go back, if you would like to focus on certain 
issues, if you have any questions.
    [The prepared statement of Mr. Guidice follows:]

                 Prepared Statement by Stephen Guidice

    Mr. Chairman, Members of the Committee. I will summarize the 
principal findings and recommendations of our Panel. It has been a 
pleasure, an education and an honor for me to work with my fellow 
panelists: Secretary Schlesinger, Dr. Foster, Dr. Agnew, and Dr. Gold 
over the past 2 years. The members unanimously support the findings and 
recommendations in our report.

                              OBSERVATIONS

    The Panel focused over the last year on the National capability to 
perform the high-priority, day-to-day work of stockpile stewardship--
surveillance, assessments, life extension programs, annual 
certification, and production. Our review included visits to the major 
production facilities and the National labs, plus presentations from 
the DOE, plant, and laboratory organizations that play a significant 
role in stockpile stewardship. The Panel also observed key parts of 
STRATCOM's Annual Certification Process.
    In this past year, the Panel has observed progress in the 
development of the Stockpile Stewardship Program and the Annual 
Certification Process. While the Panel continues to be impressed by the 
dedication and technical capabilities of the people doing the day-to-
day work, the Panel also sees the new National Nuclear Security 
Administration (NNSA) facing some major leadership challenges that 
could jeopardize the long-term success of these people and the program. 
The leadership challenges are many, and include the need: to develop a 
truly integrated program plan and budget; to make difficult judgments 
about the proper balance between science and the stockpile; and, to 
restore morale in a nuclear weapons complex continually embroiled in 
safety and security controversy.
    Of particular note this year, the Panel found, as have other 
reviewers, a seriously neglected production plant infrastructure. As 
the weapons age and inevitably need repair, the production facilities 
will face a much larger workload than today. While alarmed at the 
maintenance backlog and the physical condition of some production 
facilities, the Panel was most concerned that there appeared to be no 
overarching strategy to correct this situation. Likewise, the Panel was 
also concerned about the lack of focus and intensity of plans to 
restore missing production capabilities that will be needed for repair 
of enduring stockpile weapons.
    It is the Panel's view that major steps are needed to put the 
weapon program on a path that represents our best effort toward 
sustaining confidence in the safety and reliability of the stockpile 
over the coming decades. Congress took important steps last year when 
it increased weapon program funding and established the NNSA. Our 
report recommends additional actions that the NNSA, the Department of 
Energy, the Department of Defense, and the Congress should take to 
build on these initial steps.

                            RECOMMENDATIONS

A. Restore missing production capabilities and refurbish the production 
        complex
    A long-term program is needed to redress critical maintenance 
backlogs in weapons facilities. We have recommended a 10-year program. 
DOE estimates this backlog to be $700-800 million. Additionally, DOE 
estimates indicate another $300-500 million per year will be needed 
over the next 10 years to redress shortfalls in production capabilities 
at both plants and laboratories. We found that the same major issues 
have been reported by other reviewers, including the DOD, the GAO, and 
DOE itself. In recent years, the production complex has been unable to 
complete some scheduled weapons work on time due to deterioration of 
its facilities, some of which are 40-50 years old. When compared to 
private industry standards based on Replacement Plant Value, the DOE's 
annual investment has averaged only about one-half the recommended 
rate. Some specific examples of our concerns about production 
capabilities follow:

        <bullet> Almost a decade after the DOE decision to permanently 
        shutdown the Rocky Flats Plant and begin cleanup, we still have 
        no capability to fabricate qualified plutonium pits for our 
        enduring stockpile weapon primaries. In our principal 
        recommendation last year, the Panel emphasized that this 
        situation must be addressed--it will take 10 or more years to 
        get an adequate facility.
        <bullet> Some critical production facilities for our enduring 
        stockpile weapon secondaries have not been brought back on-line 
        since they were shutdown at the Oak Ridge, Y-12 Plant in 1994 
        for health and safety reasons. Of the three major production 
        plants, the Y-12 Plant is in the worst overall physical 
        condition.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        <bullet> The Pantex Plant, the Nation's only nuclear weapon 
        assembly and disassembly facility, is in need of critical 
        maintenance. Special-design facilities for assembling and 
        disassembling high explosives with fissile materials are in 
        need of repair.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        <bullet> In the post-Cold War transition to a smaller weapons 
        complex for a smaller stockpile, some production functions were 
        transferred to the National laboratories. There are also 
        infrastructure problems at some laboratory facilities needed to 
        support production activities, such as the Los Alamos Chemistry 
        and Metallurgy Research Facility.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    In specific, we are not adequately prepared for production in 
support of planned weapon life extension programs (LEPs). In general, 
the missing production capabilities and deteriorated facilities leave 
us even more concerned about our ability to respond to surprises.
    To meet long-term needs for nuclear components, the Panel has 
emphasized the need to begin the conceptual design of facilities needed 
for pit production, secondary production, and development work at the 
nuclear laboratories. We can significantly advance our readiness with 
relatively small expenditures on needed conceptual design work.
    Our second, third and fourth recommendations deal with the planning 
and execution of the core stockpile stewardship functions of weapon 
design, production, surveillance and assessment. It has been about a 
decade since the last new weapon was produced and new weapon designs 
were canceled. Since then, we have designed and produced no new weapons 
and relatively few components for our enduring stockpile weapons. 
Because the nuclear test issue tends to dominate the stockpile 
stewardship debate, there is a tendency to forget that nuclear testing 
was a relatively small fraction of a very large technical effort 
carried out by an integrated laboratory and production complex. The 
knowledge and skill base needed to support design, development and 
production activities is large and it will be needed to support 
continued maintenance of the reliability, safety and security of an 
aging stockpile. If weapon life extension programs, production 
readiness campaigns, and the development of better surveillance and 
assessment tools are continually slipped, then the opportunity to 
transfer the knowledge and skills from experienced people to the future 
stockpile stewards is undermined.

B. Stop the slippage in Life Extension Programs and Production 
        Readiness Campaigns that exercise the capability to design, 
        fabricate and certify replacement warheads.
    Maintaining a complete end-to-end capability is essential for 
sustaining confidence in the stockpile, and it is a national priority 
established in the first Nuclear Posture Review. The first step is to 
commit to and fund the weapons work that we know will be needed over 
the coming decade. This includes life extension work on the W76 Trident 
warhead, the W80 cruise missile warhead, and the B61 bomb. Production 
Readiness Campaigns are needed to fill the gap between those 
capabilities exercised in the near-term and those needed in the long-
term for life extension work on other weapons.
    Another essential step is to initiate programs for the design of 
robust, alternative warheads. These would provide training for new 
generations of stockpile stewards, and provide a hedge. Ten or 20 years 
from now, our confidence in robust designs based on previously tested 
weapons might exceed that in modified versions of today's weapons, 
which have been so highly optimized for weight, yield, and material 
usage that some have very thin performance margins.

C. Increase and enhance surveillance capabilities to predict and find 
        defects in the stockpile.
    This is our first line of defense in discovering emerging problems 
in the stockpile. NNSA should aggressively exploit new surveillance 
tools and methods; relatively small investments in available 
technologies could have large payoffs--for example, non-destructive 
technology for inspection nuclear components in weapons returned to 
Pantex for stockpile surveillance. For certain types of defects, our 
data could be increased about 10-fold by development and implementation 
of a CT Scan-like technology.
    In keeping with our emphasis on early detection of defects in the 
stockpile and practical training of a new generation of stockpile 
stewards, laboratory designers and engineers should seek out greater 
involvement in surveillance activities.

D. Stop the slippage in the development of tools and processes needed 
        to enable future assessments of stockpile safety and 
        reliability.
    In sum, tools must be developed before experienced personnel leave 
and before the aging process causes significant deterioration of the 
stockpile. In response to congressional direction, we assessed the 
science-based tools being developed. We believe that DOE has made a 
reasonable effort to describe the weapon physics and performance areas 
where knowledge is currently incomplete and to describe the types of 
tools needed to obtain this knowledge. We found that while some 
specific criteria defining the tools that are needed have been 
developed, there is not a defined process or timetable to reach closure 
or assess progress. DOE met the congressional mandate for a report on 
these tools on a one-time basis; we believe that an ongoing process and 
additional reporting are needed. A better process for linking 
information needs, criteria for stewardship tools, and programmatic 
milestones and budgets is needed. Specific Panel concerns include 
unresolved issues involving the new Advanced Hydrotest Facility (AHF) 
and the pace of data archiving.

E. Strengthen and Broaden the Annual Certification Process
    We recommended in our first annual report that Annual 
Certification, should also include the adequacy of the people, tools, 
and methods for addressing future problems; the ability of the weapon 
complex infrastructure to find and fix problems; and nuclear test 
readiness. It was not, and is not, the Panel's intention to dilute the 
technical certification process in place today. But more than warheads 
and bombs need to be ``certified'', if we are to maintain our 
confidence in the complex system that assures the reliability, safety 
and security of our weapons. We have suggested possible approaches to 
fulfill this need. We are encouraged that STRATCOM's Stockpile 
Assessment Team is playing a more prominent role in assessment of the 
broader stewardship goals, accomplishments and shortcomings.
    However, we remain concerned with the need for formally defined 
processes to assure that the broader perspective is provided along with 
the specific details about our weapons.
    Our sixth, seventh and eighth recommendations focus on leadership 
and management issues for the new NNSA and the DOD.

F. NNSA management must respond to morale issues at the labs, redefine 
        laboratory missions, and address long-standing management 
        concerns within DOE
    First and foremost, the Panel wants to ensure the continued 
vitality of the competition of ideas within the system of national 
laboratories. Continued confidence in the stockpile requires continued 
confidence in its stewards. We must sustain a strong system of 
laboratories and effective processes for engaging their talents in a 
constructive competition of ideas on stockpile matters. Each of the 
nuclear laboratories should provide a comprehensive review and 
assessment of each weapon type, irrespective of its laboratory origin. 
Rigorous inter-laboratory review must be employed for major design and 
certification issues. Inter-laboratory reviews also must be employed in 
preserving databases and adapting them to new computer codes. We do not 
support DOE's current proposal to give each lab exclusive rights to 
individually baseline the data for the weapons on which it takes lead 
responsibility. In the upcoming year, we will continue to investigate 
the potential differences in rigor that may result from a 
``baselining'' approach versus ``dual revalidation''.
    The labs' working environments also must be conducive to retaining 
world-class talent. We support the recommendations of Senator Baker and 
Representative Hamilton, which are intended to provide world-class 
security while minimizing unnecessary burdens.
    Management initiatives within NNSA itself are also needed. 
Responsibility and authority needs to be focused in line managers. NNSA 
should manage as a Headquarters and not get involved in the details of 
program execution. NNSA roles and responsibilities should be aligned 
with Stockpile Stewardship Program deliverables.

G. Implement an NNSA plan, schedule and realistic multi-year budget for 
        the Stockpile Stewardship Program, agreed to by the Nuclear 
        Weapons Council
    Traditional year-to-year budgeting practices have undermined the 
stability of the program, and eroded credibility in the program's 
management. Congress has directed important steps toward an improved 
system, and NNSA is working toward it. The Panel strongly encourages 
this work. It is our belief that establishing a realistic program and 
budget is essential for the health of the Stockpile Stewardship 
Program. An essential first step is for NNSA to develop a Future Years' 
Plan that aligns program goals, tasks, milestones, and resources, 
looking out at least 5 years into the future. This will enable NNSA to 
clarify programmatic goals and resource priorities, and to validate the 
total budget requirements. Incumbent on this process is the need to 
include a mechanism for balancing the requirements of indirect 
programmatic support functions, such as facility safety and security, 
with direct programmatic requirements for assuring the reliability, 
safety and security of the stockpile.
    Collaboration between NNSA and DOD in the forthcoming Nuclear 
Posture Review is necessary in developing a realistic program 
responsive to high-level strategic requirements.

H. Department of Defense needs to become a more informed customer of 
        the NNSA
    DOD must continue to develop its Nuclear Mission Management Plan as 
a genuine plan, with milestones and resources that defines the complete 
DOD requirement. This must be congruent with the DOE Stockpile 
Stewardship Program plan. The Panel also sees a need for more focused 
senior leadership within DOD. To this end, it recommends that the 
position of the Assistant to the Secretary of Defense for Nuclear and 
Biological and Chemical Defense Programs be filled to provide 
leadership within DOD and promote DOD/DOE collaboration. The Panel 
briefly examined the Defense Threat Reduction Agency's program. The 
downward trend in funding for nuclear weapons effects research is of 
concern. There is a need for an integrated DOD and DOE nuclear weapons 
effects modeling, simulation, and simulator program.
    Recommendation 1. is discussed in next steps.

                               NEXT STEPS

    In addition to following up on its previous recommendations, next 
year the Panel will focus primarily on two areas. First, the Panel 
believes that NNSA needs to determine the cost and feasibility of 
reducing nuclear test readiness response time to well below the 
congressionally mandated one year. Longer lead times create unnecessary 
difficulties for a President considering this option. We will explore 
these options. Second, we plan to develop a set of indicators that the 
Congress can use to judge the health of the weapons program. It is our 
intention to identify actions and accomplishments that you should 
expect to see in the coming years that would indicate the Nation is 
doing its best to sustain confidence in the safety and reliability of 
the stockpile.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Allard. Very good.
    Dr. Schlesinger. Mr. Chairman, let me just emphasize a 
couple of points. First, with regard to the DOD/DOE interface, 
the DOE budget is very closely controlled by the Office of 
Management and Budget, basically on an annual basis. The DOD, 
by contrast, has a future years defense budget that goes over 6 
years at the present time. We need to mesh these two together 
as far as the nuclear weapons program is concerned.
    Unless we bring them into alignment, we are going to 
continue to have these kinds of budget troubles. Mr. Guidice 
referred to the 1-year mentality. That is 1-year mentality with 
regard to the DOE NNSA budget.
    Another point to emphasize is, when these facilities were 
laid down 50 years ago, the standards of health and safety were 
quite different from what they are today, and as a consequence 
you have greater and greater difficulties making these 
facilities functional, and that is the reason that we need to 
recapitalize some of them.
    The aging weapon issue, never before have we thought that 
we would keep specific weapons in the stockpile more or less in 
perpetuity. In the past, as Mr. Guidice has indicated, we 
turned over those weapons every 8 or 10 years, so that we knew 
what we had. Now, without the ability to test, we have these 
aging weapons, and we need to surveil them much more carefully 
than we do at the present time.
    Thank you, Mr. Chairman.
    Senator Allard. Thank you, Dr. Schlesinger, and Mr. 
Guidice, I appreciate your presentation, and for members of the 
committee, I think we will move on and see if there are any 
questions from the members. We will limit your comment and 
question time to 7 minutes, and we will call on you in the 
order of having arrived at the committee. My question is, just 
to start off with, do you feel that NNSA is sufficiently on 
track to meet the needs of science-based stockpile stewardship 
in terms of accountability and authority?
    Dr. Schlesinger. Well, we hope it is moving in that 
direction. In the past, it is not just the DOD that lacked 
focus about this program. The DOE itself lacked focus. With the 
establishment of the NNSA, the organization is moving in this 
direction, but as yet the final achievement is distant. So we 
are hopeful, as we indicate in the report. Whether the NNSA can 
acquire the personnel remains an open question. General Gordon 
has sought to attract the appropriate qualified people. He has 
not always been successful. However, it is the right structure, 
and I think that is where your question goes.
    Senator Allard. That is correct. Is the NNSA as it is 
currently operating, do you think it is sufficiently able to 
act autonomously? This was kind of an issue of debate, how much 
autonomy you give NNSA.
    Dr. Schlesinger. I am sorry, Mr. Chairman.
    Senator Allard. Do you feel that it is sufficiently able to 
act autonomously?
    Dr. Schlesinger. Well, of course, the NNSA is responsive to 
the Secretary, and the balance of the DOE shares certain 
functions, legal and comptroller, with both sides of the 
agency, but yes, with regard to program, it has sufficient 
independence that it can operate autonomously if it has the 
concurrence or support of the Secretary.
    Senator Allard. I think your suggestion of a 5-year budget 
and getting that laid out is a good one, and I can see the need 
for that. We will do what we can to push it on this side. We 
are one committee, and we will do what we can as we move 
forward.
    Has the DOE undertaken sufficient efforts to develop tools 
to evaluate the weapons physics knowledge base?
    Mr. Guidice. Our review of the criteria that they have 
developed is, they have done a good first cut at the technical 
requirements to do this job. What we are most concerned about 
is the implementation and acquisition of those tools and also 
having that in the planning and budgeting cycle that you all 
could see the results. But we think the technical part of this 
is fairly well understood, on what tools would be needed.
    Senator Allard. Now, in the last Defense Authorization Act 
for fiscal year 2000, Congress mandated that DOE was to use 
criteria to evaluate and develop milestones, and yet it has no 
plan to update these criteria. Do you have any suggestions on 
how DOE could go about making sure that (a) effective criteria 
are developed and updated and (b) that there is a link between 
technical and resource needs?
    Mr. Guidice. Well, in Appendix A of our report this year, 
we do lay out a suggested approach for doing that: strategic 
planning, plans and budgets, and integration of stewardship 
campaigns. So we have laid that suggestion out to them in the 
appendix of our report.
    Senator Allard. Now, the report states that the NIF, 
National Ignition Facility's primary mission should be its 
stated primary goal, and notwithstanding the many other 
valuable activities and information which can be gained from 
the NIF project, how can we be sure that stockpile stewardship 
stays the primary mission goal of NIF?
    Mr. Guidice. I do not have a good answer for that.
    Senator Allard. Do you feel that at their present rate of 
efficiencies the weapon labs and production facilities are 
capable of both supporting work on new weapons and refurbishing 
the current stockpile?
    Mr. Guidice. No. We are not anywhere close to any position 
of doing that at any reasonable level. Recently, which is a 
good sign, the Nuclear Weapons Council has approved what is 
called phase 6.3 for three weapons, the W76, W80, and B61, and 
right now we would be hard-pressed to do those life extension 
programs as they are scheduled right now, so the question and 
the concern that we have, well, when is the plan to be ready, 
or does it always keep moving out to the future?
    My answer right now would be that the amount of work that 
goes through the system right now is not sufficient to give me 
confidence that we are transferring skills to new stewards and 
that we have plans to plug all the holes that have developed in 
the technologies.
    Senator Allard. Now, I assume that you are familiar with 
the submarine-launched ballistic missile warhead protection 
program, and would you discuss how the principles of that 
program could be applied across the current weapons inventory?
    Mr. Guidice. Well, first of all I believe that it is 
embedded in our recommendation about being able to think about 
robust weapons as alternatives to highly sophisticated weapons 
that are aging, and you may have a problem with accumulated 
changes in certifying those weapons.
    As far as I am concerned you could apply that to each 
segment of the enduring stockpile, or groupings of enduring 
stockpile weapons, like ICBM warheads, bombs, cruise missiles, 
and submarine-launched warheads, so I would think it would be 
wise to continue that philosophy, and you have done one for 
submarines, why not move on to ICBM's or other aspects of the 
triad?
    Senator Allard. Senator Reed, you are next.
    Senator Reed. Thank you very much, Mr. Chairman. As I 
listen to you, Dr. Schlesinger and Mr. Guidice, in my mind I 
had this vision of a cash register ringing up more and more 
bills to ensure the security of our nuclear stockpile.
    Just looking at the production complex issue, a backlog of 
about $700 to $800 million, your recommendation of about $300 
to $500 million a year to recapitalize, over 10 years, that is 
about $5 billion, and yet I do not sense that it is going to be 
included in the 2002 budget. If it is not in there, what are 
the consequences to the complex?
    Dr. Schlesinger. The complex will continue to age and to 
deteriorate, and we will be straining to meet what have been 
the evolving health and safety standards for the complex, and 
some will fall short, and we will be forced to close those 
facilities.
    If we are to meet evolving standards, we need to have 
facilities that are reasonably up to date, and we need to 
maintain those facilities. If we do not maintain those 
facilities, we are not going to be in a position to sustain 
confidence in the stockpile. It is as simple as that.
    Senator Reed. Now, Mr. Secretary, there are several reviews 
underway. We will have a nuclear posture review later this 
year. We have an informal review going on. My sense, and I 
wonder if it is yours, is that those reviews will add no 
further information to the present evaluation you have done on 
the production facilities. I.e., we know right now we have a 
huge bill that is pending, and if we are honest we would 
include that in the budget today. Is that a fair statement?
    Dr. Schlesinger. That is correct, sir.
    Senator Reed. Thank you.
    Dr. Schlesinger. Alternatively, we can give up on some of 
the objectives that we have set with regard to the maintenance 
of our strategic forces, or particular aspects of the 
stewardship program, such as the last one that was mentioned by 
Mr. Guidice, which is the degree of readiness of the test 
readiness program. As he indicated, we may be able to get off a 
test in 2 or 3 years.
    Senator Thurmond. If you would speak a little louder, I 
would appreciate it.
    Dr. Schlesinger. Is that what we wanted? We may be able to 
get off a test in 2 or 3 years? That is by many people's 
definition not a readiness program.
    Senator Reed. So it would have an adverse impact on 
readiness, to be polite.
    You have also talked about the stockpile surveillance 
program as an important area to stress. You have recommended 
doing more in the surveillance program and reinstating a dual 
revalidation program, and both of these being a combination 
that would become the basis for life extension programs. Now, 
that is going to cost money also, separate from the production 
facilities.
    Dr. Schlesinger. Some of that is simply a reallocation of 
effort, particularly within the weapons laboratories, the 
weapons design laboratories. At the moment, they have the 
capability to do a Dual Revalidation, for example, but there is 
a tendency to say, well, that is your weapon, we will not 
comment on your weapons if you do not comment on our weapons. 
So the capability in that respect is largely there.
    Senator Reed. So you do not anticipate, in this particular 
area, significant additional commitment of resources to carry 
out your recommendation?
    Dr. Schlesinger. I think that it is more a question of 
changing the strategy than it is an immense increase in 
funding.
    Senator Reed. Mr. Guidice.
    Mr. Guidice. If I might add on the surveillance issue, one 
of the reasons we pushed so hard is because when you talk about 
improving the program, you are talking about a few tens of 
millions of dollars in a year, you are not talking hundreds of 
millions, and we think it is very high leverage money. You may 
find out though that you do not have to do something that you 
thought you had to do.
    Senator Reed. The NNSA has talked about rebaselining or 
dual revalidation as more or less a substitute for your 
proposal. Could you comment upon their view, and the 
differences, perhaps, within the two techniques?
    Mr. Guidice. Basically, I am not clear that we have a 
thorough understanding of the definition of baselining. One 
definition of baselining is that you--and the Department is 
trying to manage a real issue, the people aging issue--capture 
all the data and get it written down before all these people 
move on.
    But one definition or difference would be that there are no 
experiments. There are no challenges, or real challenges to 
some of the original data about how we certified these weapons, 
so think of it as a program that has no experimental component 
to it. Dual Revalidation for the W76, the first and only one 
that they have done, did have that experimental component.
    But experiments are hard to do, they are costly to do, but 
you do provide some real data for maybe, perhaps, some of the 
soft spots that were in the original development program.
    So baselining, as we understand it right now, is just 
basically trying to get all the archived information down and 
captured in one place, but not much more rigor than that.
    Senator Reed. As you go forward with your review of the 
problem, will you keep this issue under your scrutiny to 
determine what makes sense?
    Dr. Guidice. Yes.
    Senator Reed. Throughout the testimony there has been 
discussions of the rivalries between the laboratories and the 
ownership of particular weapons by particular laboratories, and 
there has been a recommendation to have a more cooperative 
approach between the laboratories, but also there is that sense 
of intellectual competition that might spur research effort, et 
cetera. How do you balance this intellectual competition and 
this cooperative approach, Mr. Secretary.
    Dr. Schlesinger. Well, I think our New England poet, 
Senator, Robert Frost, says good fences make good neighbors. I 
think it is more, that the problem of good fences make good 
neighbors is the problem of the laboratories, rather than that 
there is rivalry between them. The rivalry takes the form of 
saying you stay out of our area and we will stay out of yours. 
I think that encouraging, directing, and getting the laboratory 
Directors fully to understand the benefits to the country of 
both laboratories validating weapons would be beneficial to get 
rid of that good fences make good neighbors attitude.
    Senator Reed. Thank you, Dr. Schlesinger. Thank you, Mr. 
Guidice. Thank you, Mr. Chairman.
    Senator Allard. Senator Thurmond.
    Senator Thurmond. Thank you very much.
    I ask that my statement be placed in the record.
    Senator Allard. Without objection, it will be done.
    [The prepared statement of Senator Thurmond follows:]
              Prepared Statement by Senator Strom Thurmond
    Thank you Mr. Chairman: Secretary Schlesinger, I join the Chairman 
in welcoming you to this hearing on the status of our nuclear weapons 
stockpile. I also want to thank you for appearing today and for your 
exceptional and dedicated service to our Nation.
    One of the more significant accomplishments during the my tenure as 
the Chairman of the Armed Services Committee was enactment of the Strom 
Thurmond Defense Authorization Act of 1999. In this legislation we 
created the Panel to Assess the Reliability, Safety, and Security of 
the United States Nuclear Stockpile. For the past 2 years, this panel 
has painted a no nonsense picture of the state of our strategic arsenal 
and the facilities which are responsible for maintaining that 
stockpile. Unfortunately, that picture is not pretty. The observations 
identified in your two reports are striking. They highlight just how 
much work needs to be done to guarantee our Nation's nuclear deterrent. 
I assure you that I plan to do all that I can to implement your 
recommendations.
    Dr. Schlesinger, you may be aware that I am particularly concerned 
about the lack of progress made by the department toward fabricating 
qualified plutonium pits and toward designing and constructing a full 
scale pits facility. I especially look forward to hearing your thoughts 
regarding these matters.
    Mr. Chairman, this is a significant hearing which will have long 
term implications on the state of our strategic deterrent. I 
congratulate you for your focus on this important report and the 
distinguished group of patriots who prepared it.
    Thank you, Mr. Chairman.

    Senator Thurmond. I have some questions for Dr. 
Schlesinger.
    Dr. Schlesinger, you have had a distinguished public 
service career both as Secretary of Defense and Secretary of 
Energy, and have had a long association with our nuclear 
stockpile. Has your confidence in the reliability and safety of 
our nuclear stockpile changed in the intervening years and, if 
so, how and why?
    Dr. Schlesinger. Senator, in the past, when we had nuclear 
testing, we had a surer way of establishing confidence and 
reliability. I do not think that we need worry about declining 
safety of the stockpile, but I think that the question of 
reliability is a matter of concern.
    In the more than a decade since we last tested our weapons, 
confidence in those weapons has declined. Has it declined so 
much that we need to be worried? We do not know the answer to 
that. Probably not. Probably at this time we still have ample 
confidence, particularly in view of the fact that the emphasis 
in the United States defense strategy has shifted back towards 
conventional weapons and away from nuclear weapons, so that the 
strain, as it were, on our nuclear capability has lessened.
    Nonetheless, it must be each Member of the Senate, each 
Member of the Congress and the executive branch that will have 
to decide, in the face of inevitably declining confidence in 
the reliability of the stockpile, when and whether such 
confidence has eroded to the point that we are no longer 
capable of having a credible deterrent that will deter others.
    Senator Thurmond. Dr. Schlesinger, last year you identified 
the need to immediately begin conceptual design of a full-scale 
plutonium pit production facility. Unfortunately, DOE failed to 
acknowledge your advice. This year, your report again 
highlighted this issue, and in fact you expressed an even 
greater urgency, stating, 10 more years without the capability 
to produce adequate numbers of nuclear components is pushing 
the limit of acceptable risk.
    Considering the significance of this issue, what level of 
funding per year do you believe is necessary to meet this 
compressed time frame?
    Dr. Schlesinger. Mr. President pro tem, our desire is the 
same as last year, except it is reinforced. We must begin 
conceptual design of a facility to produce primaries. It will 
probably take a decade before we have that facility, and if in 
the interim one of the categories of nuclear weapons on which 
we depend were to be discovered to be deficient in its nuclear 
components, we would be very hard-pressed to replace them, so 
as a matter of simple caution we must have the capability to 
produce primaries, and we were disappointed that Congress and 
the administration last year could not agree on proceeding with 
the design of such a facility.
    Senator Thurmond. Dr. Schlesinger, your report states, and 
I quote, ``we believe the need to design, fabricate, and 
qualify new components will increase.'' In your judgment, does 
the Department of Energy have the will and capability in terms 
of facilities, funding, and people to carry out this 
anticipated need?
    Dr. Schlesinger. I responded earlier to the chairman's 
question with respect to the NNSA. The NNSA is in the process 
of development. It was created by act of Congress a year ago. I 
think that it is the move in the right direction to establish 
an entity within the Department that has full responsibility 
and accountability, but as yet they have not passed the point 
that we can be assured that they will be able to deliver. 
Nonetheless, at this stage I think that there is the will, 
certainly in the NNSA, and I think on the part of Secretary 
Abraham, to get on with the job.
    The real question, of course, is, will they have sufficient 
resources, both financial--which is the responsibility of the 
Congress and the administration--and whether or not they can 
attract the appropriate personnel, and only time will tell us 
the answer to that.
    Senator Thurmond. Dr. Schlesinger, recommendation H of your 
report proposes that the Department of Defense needs to become 
a more informed customer of the National Nuclear Security 
Administration. Since Secretary Rumsfeld is currently doing a 
review of DOD activities and strategies, what specific 
recommendation do you have for him to fully implement the 
panel's recommendation?
    Dr. Schlesinger. Well, I think that that is a complicated 
question, Senator Thurmond, and we would be delighted to give a 
full answer on your record. However, in recent years the DOD 
has not focused on the question of nuclear weapons. It has been 
under severe budget pressure. This was a concern of the 
previous administration, and most notably, the Deputy 
Secretary, John Hamre, in that under pressure, the nuclear 
weapons position of the United States was suffering from benign 
neglect, to borrow a phrase of one of your former colleagues, 
in that there was a lack of concern with respect to the weapons 
carriers but after 2020 we have no missile production in the 
United States.
    The B-52 bomber, which remains the heart of our bomber 
force, is supposed to carry on till the year 2040, at which 
point it will be over 70 years since production, and this is an 
indication, I think, that the Department, under pressure, has 
not focused on the carriers, and they have been even more 
confident, as it were, about the weapons themselves. But as our 
number of our strategic delivery systems declines, the 
importance of the individual weapon being reliable increases in 
order to maintain a deterrent that is credible.
    Senator Thurmond. Thank you. My time is up.
    Senator Allard. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I returned this 
afternoon from Fort Bragg, where I had the unpleasant 
responsibility of attending a memorial service for a serviceman 
who was killed in Kuwait just last week from Minnesota, and it 
underscored, Mr. Secretary, where you said this is not about 
providing lip service, it is about life and death, and it seems 
to me that the least response and responsibility that we have 
in the legislative branch and in the executive branch is to 
make sure that that ultimate sacrifice of a brave man's life 
and his family's despair is not in vain.
    I may refer to Mr. Secretary, I think we refer to Senators 
long after they are no longer discharging the office, and I 
think Secretaries of Defense may be warranted to have that 
honorific longer than Senators, certainly than most, and I 
express my gratitude to you for your continued service to our 
country in this important capacity.
    I was very, very alarmed, Mr. Secretary, about what you 
said about hard hats in these facilities, debris falling upon 
them. I was touring just last week a nuclear power plant in 
Minnesota, and I was struck by the impeccable condition of that 
facility from everywhere from the roof all the way through, and 
it seems to me that this contrast is a very stark indicator of 
the failure of our Government to provide for truly the National 
security from within.
    I guess I missed some of the earlier questioning, I am 
sorry, but what are the one, two, and three recommendations you 
would have specifically, and how much would they cost to repair 
this kind of neglect?
    Dr. Schlesinger. What we proposed is something on the order 
of a $300 million a year--perhaps somewhat more than that--
recapitalization program, and a program over a decade to get 
rid of the maintenance backlog which we estimate at $800 
million.
    Senator Dayton. Now, these are physical repairs, sir?
    Dr. Schlesinger. These are physical repairs or physical 
construction.
    Senator Dayton. I remember your saying just a while ago 
that these weapons are now 10 years or more old. I would not 
buy or want to rent a car that was 10 or 12 or more years old. 
Should I be more or less reassured about a nuclear weapon that 
our country is depending on that is that age?
    Dr. Schlesinger. Senator, the weapons in the stockpile tend 
to be 20 years of age, and they were originally estimated that 
the shelf life was 15 years, so we are 5 years, as it were, 
over the original estimate of the shelf life.
    I would be deeply concerned. I have used the story of 
torpedoes that the Navy carried over from World War I to World 
War II without ample tests, and when we sent our torpedo 
bombers in at the Battle of Midway in 1942, none of those 
torpedoes worked, or adequately struck Japanese vessels. We 
were lucky at Midway, which was the crucial battle of the 
Pacific War, that we also had the dive bombers, which won the 
Battle of Midway for us, but the torpedo analogy is not a bad 
one, particularly when it is 20 years that these weapons have 
been in the stockpile.
    We have a surveillance program, and we have long had a 
surveillance program in which we take the components, and we 
test the components, and if the components appear to be 
defective, we replace them, but these are the nonnuclear 
components.
    The nuclear components are aging. They are radioactive. 
Parts of the weapon are organic materials which do not do well 
under radiation bombardment, so that is why I believe that we 
must face the fact that with the aging of the weapons and the 
absence of testing, that there is some decline in the 
confidence in the reliability of the stockpile. Whether that is 
a sharp decline or is a reasonably level decline is something 
that each individual, I guess, would have to judge for himself, 
and whether that has reached the peril point.
    Senator Dayton. It is difficult to find out until you need 
to know.
    Mr. Chairman, one last question, if I may, of either of 
you. You also said that we no longer have in this country the 
capability to produce a primary nuclear weapon.
    Dr. Schlesinger. The primary that drives the nuclear 
weapon.
    Senator Dayton. Right. Is that as alarming as it sounds?
    Dr. Schlesinger. It is alarming to me, sir. The chairman 
may be more ambivalent than I, but I was alarmed when Rocky 
Flats was shut down in 1989, and I have grown more alarmed over 
the years with the absence of the capability to produce a 
primary.
    As Mr. Guidice has indicated, we have very sophisticated 
nuclear weapons which were optimized for weight and for yield, 
and as a result we have thin performance margins in those 
nuclear weapons, and for that reason, any deterioration in the 
nuclear heart of a weapon is a source of considerable concern. 
We ought to have the capability of replacing a substantial 
number of primaries, even if we do not have to use that 
capability.
    Senator Dayton. Mr. Guidice, would you care to comment, 
sir?
    Mr. Guidice. No, that said it well.
    Thank you both. Thank you, Mr. Chairman.
    Senator Allard. Thank you. Senator Nelson from Nebraska.
    Senator Nelson. Thank you, Mr. Chairman.
    As you described the infrastructure deterioration, and you 
point out the question about replacement of the primaries in 
testing along the way to make sure that the aging of the 
weapons is not the same as deterioration of the weapons, and 
raise the budget concerns, are the budget amounts which you 
mentioned, the $300 million for a multiyear program, does that 
include what would also be involved in testing and replacing 
many of the component parts, or are we talking primarily maybe 
entirely, about the infrastructure, the crumbling facilities?
    Mr. Guidice. The $300 to $500 million per annum is facility 
rebuilding and infrastructure, repairing that type of problem. 
It has nothing to do with the surveillance or with those 
expenditures for weapon components.
    Dr. Schlesinger. But those expenditures would be relatively 
much lower than that--as indicated by Mr. Guidice in the tens 
of millions, rather than the hundreds of millions.
    Senator Nelson. As we look at this, and of course the 
closure of Rocky Flats, is there also an environmental 
component that makes it a greater challenge for us to be able 
to continue to do what we need to do, even in replacing the 
facilities?
    Dr. Schlesinger. Yes, sir. I mentioned earlier the safety 
and health standards have been rising. As you indicate, the 
environmental standards have also risen. For that reason, we 
have not been able to take the methods of production that 
existed at Rocky Flats and simply transfer them to Los Alamos 
or wherever we build that alternate facility. We have to 
upgrade them to meet the now-enhanced environmental standards.
    Senator Nelson. Do we have the capacity to do that?
    Dr. Schlesinger. I think we have the capacity to do that, 
yes, sir.
    Mr. Guidice. But what you are faced with in some places, 
and Oak Ridge is a good example, is, are these buildings so old 
and so deteriorated and so many of the safety features have 
been grafted into these old facilities, is it better to keep 
reinvesting in that, or patching it up, or do you really just 
need to build a small, modern facility to meet the current 
standards, and start cleaning that old stuff up.
    Senator Nelson. It still boils down to a matter of money, 
when all said and done.
    Dr. Schlesinger. Just to use a metaphor here, Senator 
Nelson, the Atomic Energy Commission budget when Dwight 
Eisenhower was President of the United States was about 4 
percent of the Federal budget. It is now down to a fraction of 
1 percent, which over the years did not matter that much, but 
now that we face these very aged and in some cases decrepit and 
fragile facilities, we have to recognize how much these 
facilities did originally cost.
    Senator Nelson. Then there is the additional question of 
the delivery systems such as the aging B-52's.
    Dr. Schlesinger. Yes, indeed, and how is Offutt Air Force 
Base, Senator?
    Senator Nelson. I was just there recently for a briefing. 
It is still in great shape. The deterioration you have spoken 
about other places has not carried over to Offutt, I am pleased 
to say.
    Dr. Schlesinger. Well, those youngsters who used to say 
that the airplanes that they flew were older than they were, 
they can now say that those planes are getting as old as their 
grandfathers were.
    Senator Nelson. Unfortunately I believe you are accurate, 
too. Thank you very much.
    Senator Dayton. I was out at Pope Air Force Base today. 
They said they had planes so slow they worry about the birds 
from behind, not the front. [Laughter.]
    Senator Allard. Senator Akaka from Hawaii.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Senator Allard. Are you finished, Senator Nelson?
    Senator Nelson. I am finished, thank you.
    Senator Allard. Yes, OK. Senator Akaka. Sorry.
    Senator Akaka. Thank you, Mr. Chairman. I have a brief 
statement that I would like to include in the record.
    Senator Allard. Without objection, so ordered.
    [The prepared statement of Senator Akaka follows:]

             Prepared Statement by Senator Daniel K. Akaka

    Thank you, Mr. Chairman. I would like to welcome Mr. Schlesinger 
this afternoon.
    The effectiveness of the Stockpile Stewardship program plays a 
vital role with respect to our national security. The issue of whether 
or not the United States can sustain sufficient confidence in the 
safety and reliability of its nuclear deterrence capability while 
complying with the terms of the Comprehensive Test Ban Treaty is 
integral to the decisions we make with respect to this important 
program.
    I have reviewed the recommendations made by the panel and look 
forward to your testimony this afternoon.

    Senator Akaka. Dr. Schlesinger, it is good to see and hear 
you again, and to hear your comments about this program. I am 
particularly interested in one part of this program, and under 
the elements for stewardship, it includes talented, well-
trained people, adequate weapons and so forth, but I am 
interested in the people, and stewardship.
    The panel supports the National Ignition Facility, due to 
the critical insights into stewardship this program could 
offer. Besides stockpile stewardship, which the panel states 
should be the prime stated goal of the National Ignition 
Facility, this facility will also be used by researchers. This 
facility could be used by the next generation of nuclear 
physicists to replace those critical positions in the 
Department of Energy's laboratories.
    This is my question. Is the panel concerned that such an 
emphasis on stockpile stewardship and classified research at 
the National Ignition Facility could detract from the 
laboratories' basic research programs, which could otherwise 
encourage young scientists?
    Dr. Schlesinger. I think that is fundamentally a budget 
question, Senator. I think that there has been an attitude in 
Washington that Livermore overran its estimate on the National 
Ignition Facility, and that therefore it should be in some 
sense forced to eat part of that overrun. Obviously, under 
those circumstances it will somewhat constrain the balance of 
its research program.
    Senator Akaka. I ask that question because as we look at 
the future, and the future stewardship, we are going to need 
the young minds, as we have been talking about age here, and 
equipment. We are going to need those young scientists in the 
future to come in and continue this stewardship, and that was 
my concern.
    Dr. Schlesinger. Well, it is a very appropriate concern, 
Senator. In this post cold war period there must be something 
scientifically exciting to attract personnel to the 
laboratories, and the NIF was one of those elements that 
provided scientists excitement, and I think that may be the 
most important aspect of the NIF, even given its role in 
stockpile stewardship.
    Senator Akaka. Thank you very much.
    Senator Allard. Thank you, Senator. I would like to follow 
that up just a little bit. Over the last few years, there has 
been a push with the labs to get more involved with economic 
development activities, and they set up private business 
partnerships and other activities which do not seem to support, 
in my view at least, the stewardship mission. Do these 
activities detract, or do you think they enhance the core 
stewardship mission for the labs?
    Dr. Schlesinger. That in my judgment at least, Mr. 
Chairman, depends upon the choice of activities. Many of those 
activities will add to the spirit of excitement within the 
laboratory. On the other hand, a laboratory, because of 
budgetary concerns, could be induced to engage in what is 
uninteresting work, or in the eyes of some, make-work, and in 
that respect they would certainly detract from the attraction 
of the laboratory and the ability of the laboratory to perform 
its fundamental tasks on stockpile stewardship.
    Senator Allard. Our inability to attract new talent and 
what-not into the laboratories, do you think that is a function 
of solely money, or is it part a function of program, or is it 
a function of not seeing a future there 10, 20, 30 years down 
the road?
    Dr. Schlesinger. It is a function of many things, Mr. 
Chairman. Steve is more familiar with these things, but let me 
say that for those who worked in the weapons program there was 
a psychological pay-off when you were able to test the weapons. 
When you are dealing with maintenance of aging weapons, there 
is just that much less of a psychological pay-off.
    There has been the problem in the laboratories of what is 
seen as excessive pressures on security, such that the time 
involved in dealing with the security aspects of the individual 
researcher has risen from 10 percent to 20, 30 percent of his 
total time. Well, for one thing, that reduces the amount of 
time available for real research, if the researchers are 
devoting their time to fulfilling various security-related 
activities.
    Senator Allard. Has that phenomenon just happened in the 
last 10 years, over last year, or over the last 4 or 5 or 6 
years?
    Dr. Schlesinger. I think it is really these last 2 or 3 
years, since the eruption of concern, appropriate concern about 
whether or not the People's Republic of China had been able to 
exploit the openness of the laboratory, and those are concerns 
that must be dealt with.
    There has also been a reaction--there was the reaction to 
the Wen Ho Lee case, which in some respects at least appears to 
have been exaggerated, but the fundamental point here, Mr. 
Chairman, in my judgment at least, is that the way to deal with 
this problem is to raise the security consciousness of people 
in the laboratories. That is the central feature. If they are 
security conscious, they will be able to respond effectively in 
certain circumstances, and compared to that, many of the 
official requirements and many of the foci of activities become 
secondary.
    We spend a lot of time building fences to keep people out, 
but if you think about aspiring nuclear countries, including 
those that already have the weapon and want to upgrade the 
weapon, you can figure out those particular things in which 
such countries are interested, and those are the areas that we 
ought to seek to protect and to raise the security 
consciousness of those involved in them, rather than simply 
building fences.
    The intrusion behind fences has been very limited over the 
years. The intrusion into the laboratories because of a lack of 
sufficient security consciousness has been much greater, and we 
ought to focus on those elements that would be of particular 
interest to proliferators.
    Senator Allard. I would like to go back to this dual 
revalidation issue. If we have one laboratory that is involved 
in the design and the testing and the manufacturing of data of 
a particular warhead, just how important is it that we include 
scientific oversight and input from the other laboratories?
    Dr. Schlesinger. Well, going back to that earlier question, 
and Steve, you should get into this, going back to that earlier 
question of how much confidence that we have in the stockpile, 
these are aging weapons, and when we were turning over the 
stockpile every 8 or 10 years, and we had large numbers of 
weapons in the stockpile, the existing system in which each 
laboratory owned its own weapons was sufficient to give one a 
high degree of confidence.
    Here, we are looking out over 20, 30 years of essentially 
the same weapons in the stockpile with changed components, and 
a much reduced number of weapons types in the stockpile. Under 
these circumstances, it seems to me, there is much greater 
advantage in having one laboratory looking over the shoulder of 
the other laboratory as it contemplates the condition of its 
weapons.
    Senator Allard. Senator Reed--did you have a comment, Mr. 
Guidice?
    Mr. Guidice. Well, technically, in the past, we have only 
been able to look at defects in one or two dimensions of 
analysis, but all defects in the nuclear package are in three 
dimensions, and although we are now trying to look at them in 
three dimensions, the answers are not clear. Defects cause 
asymmetries in the implosion and the functioning of the weapon, 
and it is terribly important that independent eyes look at the 
data and try to make a good technical judgment about what the 
consequences of the defect would be. I think it is vitally 
important.
    Senator Allard. Senator Reed.
    Dr. Schlesinger. Are we at the three dimensions yet?
    Dr. Guidice. We are starting, we are in the first part of 
the use of three dimensional analysis capability.
    Dr. Schlesinger. To this point, those computer models have 
basically been two-dimensional, and we are getting to the 
point, just beginning to get to the point where we can look at 
these weapons in three dimensions. That, incidentally, I think 
reinforces the argument for dual revalidation, Mr. Chairman.
    Senator Allard. Good point. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Mr. Secretary, DOE has been trying to develop a multiyear 
budget for about 13 years, and the requirement in the fiscal 
year 2000 National Defense Authorization Act is, I believe, at 
least a fourth statutory effort to obtain a multiyear budget, 
but, as you point out, the culprit is the Office of Management 
and Budget. How do we fix that? How do we deal with that 
obstacle?
    Dr. Schlesinger. Well, I am not sure that as an old DOD-OMB 
man that I would like to describe the OMB as the culprit.
    Senator Reed. Who better than you, Mr. Secretary.
    Dr. Schlesinger. I think that it is my judgment that the 
Congress can, and I would suggest should, mandate that the 
Department of Defense budgeting and the DOE budgeting be 
brought into alignment, and that, as long as the Department of 
Defense is operating on a future years defense program of 6 
years, that we should also be looking to the defense programs 
of the DOE to be looking out that way, and that it is a strong 
expression of concern that the OMB collaborate in achieving 
that objective. I think that a strong expression of concern on 
the part of the Congress would bring about a much broader and 
longer-term attitude on the part of the OMB.
    Senator Reed. In that sense, Mr. Secretary, would a much 
more forceful embrace of the DOE by DOD be helpful in that 
sense. One perception I have is that with the demise of the 
Soviet Union, the centrality of nuclear weapons has changed 
dramatically, and it has created both a mind set and a 
prioritization which has diminished significantly nuclear 
deterrence.
    Dr. Schlesinger. Rightly so. The strategy of the United 
States is no longer to initiate the use of nuclear weapons in 
the event of successful Warsaw Pact invasion of Western Europe, 
and therefore, since initiation is not our concern, and since 
we also, in dealing with other nations, including Saddam 
Hussein, have stressed conventional capabilities as our 
effective deterrent, the emphasis on nuclear weaponry should 
have declined, but it may have declined too far.
    The DOD is under heavy budgetary pressure itself, and as a 
consequence it has lost the focus on nuclear weaponry, at least 
temporarily. Secretary Hamre tried to restore this in the 
recent administration, and he continues to be concerned about 
that. I think that we will see how interested in rebalancing 
that perception, that perspective on the part of the new 
administration will ultimately be.
    Senator Reed. In the light of all these pressures on the 
relationship of DOD to DOE, would a significant reduction in 
the nuclear weapons stockpile, both deployed weapons, and 
weapons in a nondeployed stockpile, improve the situation in 
terms of safeguarding the security of the weapons?
    Dr. Schlesinger. I do not think that the security of the 
weapons is that----
    Senator Reed. The reliability.
    Dr. Schlesinger. The reliability, no, because the weapons 
would still continue to age. We only have, what, seven weapons 
types remaining in the inventory, and those weapons are 20 
years old. They continue to age 1 year every year. We are doing 
surveillance. We are replacing components, but the reliability 
will decline, and it is not a question of the number of 
weapons, I believe.
    As the number of weapons goes down, the great concern is 
that the reliability must be maintained, or possibly enhanced, 
simply because the deterrent, which we use, at least 
rhetorically, to deter not only nuclear attacks but chemical 
and biological attacks against ourselves and some of our 
allies--we must have a high degree of confidence in that 
stockpile, and that degree of necessary confidence per unit 
increases as the number of units diminishes.
    Senator Reed. If I may I have one final question. You have 
talked about, and the panel has recommended, the design of 
robust alternative warheads, of which the design, and perhaps 
even the fabrication, would be permissible under the 
Comprehensive Test Ban Treaty, but to what extent would you 
design, even fabricate a system, and not want to, or have the 
need to, test it?
    Dr. Schlesinger. I think that there will be those who would 
want to test, and certainly people in the laboratory engaged in 
designing these weapons would very much like to test, but that 
is a matter of national policy.
    President Bush, or Candidate Bush said that we would 
continue to observe the moratorium, even though we ourselves 
would not ratify the treaty, and as long as that is the rule, I 
think that that will certainly be enforced upon personnel in 
the laboratories. However, I think that it does two things. 
First, it does provide you with a backup against these 
sophisticated weapons with relatively thin performance margins, 
and second it keeps some people engaged in the design process.
    Perhaps the greatest problem that we have is the problem of 
human capital. The number of people in the laboratory system 
who have ever observed a nuclear test or participated in a 
nuclear test is declining, and within 10 years they will all be 
gone. The numbers who have participated in the design of 
nuclear weapons are rapidly fading out.
    One of the advantages of having them design nuclear weapons 
without testing is that it tends to keep that kind of 
professional capability alive.
    Senator Reed. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Senator Allard. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. Senator Reed, 
regarding the reference to the OMB, I have often thought that 
what we need to do is develop a bureaucratic version of the 
neutron bomb that would leave all the people standing but 
obliterate the bureaucracy. We could work on that maybe at one 
of our next advanced facilities.
    Senator Reed. A job for Livermore.
    Dr. Schlesinger. That is an ambitious goal, Senator.
    Senator Dayton. An ancillary but still related issue is, 
and we are struggling with this in the Congress, is the 
designation and development of a permanent nuclear repository. 
How does the failure of our country to develop such a site 
impact, if it does at all, these aging nuclear weapons, the 
materials, the desire, as you say, or the need to upgrade them 
and develop new capabilities?
    Dr. Schlesinger. Well, that is a very complex question that 
would require extended discussion, but basically we now have a 
site to deal with the waste from the weapons program. It is the 
site in New Mexico called the Waste Isolation Pilot Plant 
(WIPP). I think you may be concerned about the arguments over 
the site in Nevada, which deals with waste, or the individual 
nuclear packages from nuclear reactors. That continues to be a 
matter of great concern, but we are working effectively, if too 
slowly, on disposing of the waste from the weapons program 
itself.
    There has been progress in Idaho. I think there is progress 
continuing at Hanford. There is work going ahead at Savannah 
River, so I think that in that area we have less concern than 
about how to deal with the byproducts of the nuclear reactor 
programs in this country, which has a much stronger ideological 
element in it, may I say, than with regard to the weapons 
program.
    Senator Dayton. I learned something new. I thought that it 
was all going to end up at Yucca Mountain, or some alternative.
    Mr. Guidice. Nuclear weapon production does not generate 
high-level waste. They typically generate low-level and some 
transuranic, which is a mixture of chemical and low-level, so 
the Yucca Mountain is high-level waste from reactors, but the 
weapons program itself does not generate that kind of waste.
    Senator Dayton. Thank you.
    Dr. Schlesinger. These reactors, the fuel in them runs to 
30,000 megawatt days. They can be very, very radioactive, 
whereas with the weapons program basically you are just dealing 
with the byproducts of production, much simpler.
    Senator Dayton. Thank you. Thank you, Mr. Chairman.
    Senator Allard. Thank you. I have about four questions 
here, and then I think we can call everything to a close. I 
appreciate your comments this afternoon and the time you have 
dedicated to the committee.
    Both of you indicated that to increase efforts and 
surveillance capabilities to predict and find defects in the 
stockpile as atop priority. I guess the question related to 
that, do you believe BOB and NNSA has made surveillance a top 
priority, and are they responding to your concerns in that 
regard?
    Dr. Guidice. I think they have, at least I am told they 
have in the last budget year.
    Senator Allard. What about the Congress? I mean, the agency 
is responding. Do you think the Congress is responding?
    Dr. Guidice. I do not know where the negotiation is in 
that. I do know that the Department has tried to make an effort 
to put more money into surveillance on a scale that we thought 
was appropriate.
    Dr. Schlesinger. We will be better able to reach a judgment 
on that, Mr. Chairman, in about 7 or 8 months time.
    Senator Allard. I thought you would answer in that way.
    With the loss of scientists with actual testing environment 
expertise and experience, is there a fear that we could be 
moving toward an era in which our stewards are more experienced 
with computer codes than nuclear physics, and does that create 
a concern for the reliability, safety, and security of the 
stockpile?
    Dr. Guidice. Absolutely. I mean, that is why it is 
important not to allow these stewardship milestones to keep 
slipping into the future until everybody else has died off who 
could train them, and who has any practical experience to 
temper their judgment----
    Senator Allard. Experience is the bottom line in a lot of 
this, is it not?
    Dr. Guidice. Right, and new stewards need some humility to 
realize that these things are not as simple as running a 
computer code.
    By the way, that is not to demean the current generation of 
stewards. The ones that I have talked to I think do have a 
sense of awe about what they are being asked to do, but we need 
to let them do more while the older, experienced people are 
around.
    Senator Allard. Yes. You mentioned a report in section F, 
under NNSA management, on page 24, that unfunded mandates to 
meet functional requirements undermine the program budget, 
plans, and milestones, and I guess the question is, do these 
mandates come from Congress, or do they come from DOE, or both?
    Mr. Guidice. The kinds of unfunded mandates we are talking 
about are generally in safety and security, OK. Security is 
relatively new, this last round of security. We had a round in 
the 1980's as well, but it reaches its height in safety, where 
approaches to safety are not coordinated with program 
requirements, in other words, the work that is actually 
necessary to do to maintain the stockpile.
    We are hopeful that a true or good planning and budgeting 
process would help decide how much to pay on what are now 
unfunded mandates, but what we do not see is a process for 
judging how much is enough. It is very difficult for people and 
for organizations to decide how much safety is enough, are you 
way out on the diminishing returns part of the curve for your 
investment, and what we do not see is the process to put that 
in balance.
    Now, I hope the multiyear budget process----
    Senator Allard. It is very difficult to measure.
    Mr. Guidice. Yes.
    Senator Allard. Could you give me some examples of funded 
mandates which you believe are not critical to the core mission 
at NNSA or the labs?
    Mr. Guidice. Well, I do not want to give you a specific 
example, but I would stick on the issue of safety. A number of 
things that we do in safety are way out on the diminishing 
returns part of the curve. They go beyond the laws and 
regulations. They go to interpretation and increasingly 
restrictive interpretation. We go through waves of this, and 
initially what happens--in fact, there is a wave going on with 
security right now. The requirements are extremely stringent, 
people realize they cannot afford them and pay for them, and 
eventually reason settles in, but only after a long period of 
time and a lot of money to get there.
    I see that mostly in safety. We do things in the name of 
safety that do not really add a lot to safety in terms of 
value-added to the worker and health.
    Dr. Schlesinger. In cases the redesign of a nuclear weapon 
has diminished the reliability of that weapon because of the 
addition of the safety features that might malfunction.
    Senator Allard. I see. Now, in dealing with the question of 
cooperation between DOD and DOE, to what extent has mitigation 
of authority and the temporary vacancy of the assistant 
Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs negatively affected the relationship between 
DOD and DOE, if at all?
    Dr. Schlesinger. Well, I think the answer to that, Mr. 
Chairman, is that without the critical personnel in the 
Department of Defense in particular, the Nuclear Weapons 
Council, which is supposed to be the bridge between the two 
agencies, becomes less functional, less attentive to problems, 
and therefore it is important either to have that assistant 
Secretary in place, or alternatively to charge somebody else in 
the Pentagon with the responsibility to keep the Nuclear 
Weapons Council functioning.
    Senator Allard. Then, just to conclude here, I would just 
say--unless, Senator Dayton, you have any more questions, if 
anyone needs testimony or copies of the slides you can come to 
the committee and we will have them ready for you, and we will 
leave the record open for 2 days for questions, and thank you, 
Dr. Schlesinger and Mr. Guidice.
    Dr. Schlesinger. The pictures over there of the various 
crumbling facilities also are available for the record.
    Senator Allard. They will be made available. Thank you very 
much.
    Dr. Schlesinger. Thank you, sir.
    Mr. Guidice. Thank you.
    Senator Allard. The subcommittee is adjourned.
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Bob Smith

    Senator Smith. I note that like the DOE, the DOD has serious 
problems sustaining its unique nuclear capabilities. Deterioration in 
facilities, loss of experienced senior scientific and engineering 
staff, the inability to attract a younger generation, and low morale 
all apply.
    What actions might the Panel take during the third year of study to 
develop recommendations for coordination between DOE and DOD that 
retain and reconstitute the complementary capabilities of each 
organization?
    Dr. Schlesinger. For the first few years following in the Cold War, 
the Department of Defense gave, appropriately in my view, less emphasis 
to the nuclear deterrent. The Panel's concern is that DOD has gone too 
far in this regard and that the DOD portion of the nuclear deterrence 
mission has suffered as a result.
    Over the coming year, the Panel will be developing proposed 
confidence indicators--measures that Congress might use to appraise the 
success or failure of stockpile stewardship. This will include measures 
involving the DOD nuclear mission and the Defense Department's 
collaborations with NNSA/DOE. For this purpose, we will be looking at 
the following:

        <bullet> Do DOD strategy reviews and the revised Nuclear 
        Posture Review result in a DOD nuclear deterrence mission that 
        is clearly defined, effectively communicated as a national- and 
        departmental-priority, and adequately resourced?
        <bullet> Does the DOD Nuclear Mission Management Plan provide a 
        genuine plan for all aspects of the DOD nuclear mission, to 
        include specific, measurable objectives; milestones for 
        accomplishments; and resources? Is the DOD plan congruent with 
        the NNSA/DOE Stockpile Stewardship Plan? Has DOD defined 
        specific requirements for the technical capabilities it needs 
        from NNSA, both to meet currently forecast needs associated 
        with the enduring stockpile and current delivery systems, and 
        to meet new requirements if and as the threats to be countered 
        change in the future?
        <bullet> Is the Nuclear Weapons Council functioning effectively 
        as the critical interface between DOD and NNSA/DOE? In this 
        regard, the Panel is encouraged that the NWC has resumed having 
        regular meetings and that at the end of last year it reached 
        initial agreement concerning Life Extension Programs (LEP) for 
        the B61, W80, and W76 weapons. The Panel will be monitoring 
        actions to define and accomplish these programs, plus the 
        status of, and lessons learned from, the W87 LEP that has been 
        underway (and behind schedule) for some time.
        <bullet> Is the Department of Defense providing appropriate 
        senior-level leadership and oversight for DOD nuclear matters? 
        In this regard, our second report recommended that DOD return 
        to the past practice of having an official appointed by the 
        President and confirmed by the Senate serve as Assistant to the 
        Secretary for nuclear matters.

    As part of our appraisal in this area, the Panel will also be 
examining the Defense Department's response to a recommendation posed 
in 1990 by the Congressionally chartered Nuclear Weapons Safety Panel 
that this Assistant to the Secretary of Defense be given a more senior 
status as the OSD member of the Nuclear Weapons Council and upgraded to 
the same status as an Assistant Secretary of Defense, with direct line 
of reporting to the Secretary of Defense.\1\
---------------------------------------------------------------------------
    \1\ Nuclear Weapon Safety. Report of the Panel on Nuclear Weapons 
Safety of the Committee on Armed Services, House of Representatives. 
Committee Print 15. December, 1990, p. 20.
---------------------------------------------------------------------------
    The Panel will also give attention to the programs of the Defense 
Threat Reduction Agency (DTRA), the successor to the Defense Nuclear 
Agency. In the Panel's initial look at the DTRA program, the downward 
trend in funding for nuclear weapons effects research and readiness is 
of concern. Specific issues to be reviewed include integration of DOD 
and DOE programs for nuclear weapon effects modeling, simulation, and 
simulator technology development; the DOD nuclear weapons effects 
phenomenology technical base; and readiness for nuclear tests. In the 
current year, the Panel has already reviewed DTRA test readiness 
activities. Our assessment is that DOD does not have a test readiness 
plan and resourced program.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

    Senator Reed. Dr. Schlesinger, why is funding for the Laboratory 
Directed Research and Development program important to the overall 
health of the laboratories?
    Is this funding equally valuable for the weapons program?
    Do you agree with the recommendation of the Secretary of Energy's 
Advisory Board Report that LDRD program funding should be increased?
    Dr. Schlesinger. Laboratory Directed Research and Development 
(LDRD) is a very important component of the programs within the three 
nuclear weapon laboratories--Lawrence Livermore, Los Alamos, and 
Sandia. It provides laboratory directors with some flexible resources 
needed to sustain world-class scientific programs. It enables the 
laboratories to initiate development of the next generation of 
technologies in a timely way. LDRD funds are crucial for recruiting the 
best and the brightest of the new scientists for whom the labs are 
always searching.
    Past LDRD funding supported development of some of the key 
technologies being utilized in the Stockpile Stewardship Program.\1\ 
Examples include radiation hardened microelectronics at Sandia, proton 
radiography at Los Alamos, and use of laser heated diamond anvil cells 
to develop new information concerning plutonium equations of state at 
Lawrence Livermore.
---------------------------------------------------------------------------
    \1\ This and the examples below are based on the information 
provided in: Review of the Department of Energy's Laboratory Directed 
Research and Development Program. Department of Energy, External 
Members of the Laboratory Operations Board. January 27, 2000.
---------------------------------------------------------------------------
    LDRD provides the preponderance of current funding for weapons-
program-related basic research and new concept development work. This 
is particularly important as we implement the science-based stockpile 
stewardship program.
    Particularly at the physics labs (Lawrence Livermore and Los 
Alamos), LDRD plays an important role in funding postdoctoral 
researchers, many of whom are involved in, or transition to, research 
in direct support of the weapons program.
    The specific Secretary of Energy Advisory Report recommendation 
being referenced is:

        The Congress should restore the LDRD program at the DOE multi-
        program laboratories to at least 6 percent, and should restore 
        Environmental Management programs to the LDRD base.\2\
---------------------------------------------------------------------------
    \2\ Review of the Department of Energy's Laboratory Directed 
Research and Development Program. Department of Energy, External 
Members of the Laboratory Operations Board. January 27, 2000. p. 18.

    Our Panel is not chartered to examine environmental management and 
hence has no views concerning this portion of the recommendation. 
Regarding funding level, in our fiscal year 2000 report our Panel 
endorsed Congress' action \3\ to include an allowance of 6 percent for 
LDRD.\4\ We believe it is appropriate to sustain LDRD funding at such a 
level and to invest a significant percentage of these funds on projects 
of direct benefit to stockpile stewardship.
---------------------------------------------------------------------------
    \3\ Conference Report to Accompany H.R. 4635, Report 106-988, p. 
264.
    \4\ Fiscal year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001, p. 22.
---------------------------------------------------------------------------
    Senator Reed. Dr. Schlesinger, you indicated in your testimony that 
the laboratories have been hurt in their ability to attract new 
scientists and engineers as a result of the increased emphasis on 
security.
    Do you have any specific recommendations on how to improve the 
image of labs and their ability to recruit?
    Dr. Schlesinger. There is a strong commitment to security within 
the laboratories, plants, and NNSA. Current issues involve the manner 
in which responses to recent security incidents have been accomplished. 
Our Panel endorses the analysis and recommendations of the security 
review accomplished by Senator Baker and Representative Hamilton. With 
regard to the situation within Los Alamos National Laboratory, it was 
their finding that:

          . . . the combined effects of the Wen Ho Lee affair, the 
        recent fire at LANL, and the continuing swirl around the hard-
        drive episode have devastated morale and productivity at LANL. 
        The employees we met expressed fear and deep concern over the 
        influx of FBI agents and yellow crime-scene tape in their 
        workspace, the interrogation of their colleagues by the FBI and 
        by Federal prosecutors before a grand jury, and the resort of 
        some of their colleagues to taking a second mortgage on their 
        homes to pay for attorney fees. The inevitable anxiety 
        resulting from these circumstances collectively has, by all 
        accounts, had a highly negative effect on the ability of LANL 
        and the other national laboratories to continue to do their 
        work, while attracting and maintaining the talented personnel 
        who are the lifeblood of the cutting-edge work of the 
        laboratory. This is particularly true in X Division and NEST, 
        but seems to be a factor in the lab as a whole.\5\
---------------------------------------------------------------------------
    \5\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton, September 2000, p. 23.
---------------------------------------------------------------------------
          The ability of LANL and the other national laboratories to 
        attract and retain top talent has already been eroded, and now 
        stands at serious risk. If the National laboratories lose the 
        ability to attract and retain top talent, then U.S. national 
        security will be seriously harmed. That harm may be long 
        lasting, in light of the specialized nature of nuclear weapon 
        design technology and the inexorable attrition through 
        retirement and other departures of the dwindling numbers who 
        understand them thoroughly.
          It is doubtful that the DOE, NNSA, LANL, and the University 
        of California will be able effectively to redress either 
        security or management lapses in the midst of a continuing 
        criminal investigation or prosecution. It is critically 
        important to national security that the internal disruptions at 
        LANL be brought to a swift and orderly conclusion, and that the 
        new management structure of the NNSA take all necessary 
        measures to put the laboratory back to work, and to establish 
        the conditions that will be conducive over the long term to the 
        development of leading-edge science in a safe and secure 
        environment.\6\
---------------------------------------------------------------------------
    \6\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton. September 2000. p. 23.

    Our Panel believes that Baker and Hamilton identify key actions 
that are needed to achieve a long-term solution that provides for both 
world-class science and effective security. Two of their 
recommendations warrant particular emphasis. First--There is no 
substitute for individual commitment to security.\7\ The security 
consciousness of personnel within the complex is our primary 
protection.
---------------------------------------------------------------------------
    \7\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton. September 2000. p. 15.
---------------------------------------------------------------------------
    Second--Security procedures should be subject to greater 
predictability, consistency, and consultations with laboratory 
employees.\8\ Staff throughout the complex support the objective of 
having effective security. These are some of the most intelligent 
people in the Nation. We need to involve them to a much greater extent 
in developing measures that provide effective protection for critical 
information and materials while at the same time reducing 
administrative burdens that do not make substantial contributions to 
our objectives. In this regard, we need to make greater use of their 
talents to identify the specific items of information that would be of 
greatest interest to adversaries, such as states attempting to develop 
or improve nuclear weapons, and to develop improved protection for this 
information.
---------------------------------------------------------------------------
    \8\ Science and Security in the Service of the Nation: a review of 
the security incident involving classified hard drives at Los Alamos 
National Laboratory. A report to the President of the United States and 
the Secretary of Energy by the Honorable Howard H. Baker, Jr. and the 
Honorable Lee H. Hamilton. September 2000. p. 22.
---------------------------------------------------------------------------
    If these and the other actions recommended in the Baker-Hamilton 
review are implemented, the result will be a environment conducive to 
excellent science, engineering, and production in which security is 
integral to technical effort and nonproductive administrative burdens 
are minimized. This will make a significant contribution to the ability 
of the labs and plants to recruit the top-quality staffs that are 
needed.
    Our Panel's agenda for the coming year includes development of 
proposed measures indexing the extent to which we can have warranted 
confidence in our stockpile, and the technical and production 
infrastructure that supports it. This will include measures dealing 
with the weapon labs and plants. These indicators will involve 
confidence in the people who do stewardship, in the processes employed, 
and the adequacy of the criteria for the tools necessary to judge 
whether the stockpile can be certified.
    Several years ago the Chiles Commission conducted a very insightful 
survey within the weapons complex.\9\ It asked some very important 
questions, for example: ``Would you recommend your laboratory, 
facility, or test site as a good place to work?''. Responses were 75 
percent, yes; 25 percent, no. To allow the changing status of 
conditions within the labs to be appropriately monitored and appraised, 
Congress might direct that a follow-on survey asking the same questions 
be conducted at several year intervals.
---------------------------------------------------------------------------
    \9\ Commission on Maintaining United States Nuclear Weapons 
Expertise, Report to Congress and Secretary of Energy, March 1, 1999. 
Question responses are provided on p. C-20 of this report.
---------------------------------------------------------------------------
    Senator Reed. Dr. Schlesinger, you suggested a possible need to 
design a robust warhead design.
    Is this suggestion made to ensure maintenance of technical skills 
to design a new warhead, or is this recommendation made to support 
actual development, certification and deployment of a new warhead?
    Dr. Schlesinger. Several points warrant attention in addressing the 
design of robust, alternative warheads. A starting point involves 
policy considerations as articulated in statements made by the previous 
administration that I hope will be endorsed by its successor. The first 
of these is that having the ability to design and field new weapon 
types is an integral part of the stockpile stewardship program.\10\ 
Second, nothing in the proposed CTBT to which the Senate did not give 
advice and consent would inhibit the design, development, or production 
of nuclear weapons.\11\
---------------------------------------------------------------------------
    \10\ ``. . . The ability to design and field new weapons types, 
however, is, appropriately, an integral part of the stockpile 
stewardship program. Response to advanced questions by Ms. Madelyn R. 
Creedon to the Committee on Armed Services, United States Senate, April 
11, 2000, p. 8.
    \11\ ``The United States understands that Article I, paragraph 1 
does not prohibit any activities not involving nuclear explosions that 
are required to maintain the safety, security, and reliability of the 
U.S. nuclear stockpile to include: design, development, production . . 
.''. U.S. Department of State. Article-by-Article Analysis of the 
Comprehensive Nuclear Test-Ban Treaty, Article I--Basic Obligations. p. 
3.
---------------------------------------------------------------------------
    It is important to recognize that when currently deployed weapons 
were designed, there was no expectation that they would be sustained 
beyond their projected service lives in circumstances in which there is 
a unilateral moratorium on testing.
    We did not ask our experts to design weapons on the assumption that 
testing would not be permitted. Instead, we asked them to design 
weapons that are safe and are highly optimized for weight, yield, and 
material usage. The result is that some current stockpile weapon 
designs have thin performance margins. These designs are fussy, and 
past testing has revealed inconsistencies that are not understood.
    Every part within our enduring stockpile weapons is a limited life 
component; every one of these parts will at some point be replaced.\12\ 
Some of the original parts will no longer be available; some 
manufacturing processes cannot be reproduced. Change is unavoidable. 
Consequently, the issue involves decisions concerning the types of 
change that have the lowest risks.
---------------------------------------------------------------------------
    \12\ Statement by Henry G. Chiles, Jr. Before the U.S. Senate Armed 
Services Committee, October 7, 1999.
---------------------------------------------------------------------------
    The Panel recommends design of more robust, alternative warheads 
based on successfully tested designs for both of the reasons stated in 
the question. The objective is to design, develop, and certify robust, 
alternative warheads that would provide hedges against future 
uncertainties. We believe that there may come a time 10 or 20 years 
from now at which we may have more confidence in alternative weapons 
based on more conservative versions of previously tested designs than 
we would have in the inevitably modified versions of enduring stockpile 
weapons.
    In this proposal risk would be reduced by making use of 
conservative versions of designs that have been previously tested. 
There are, however, limits to our confidence in past experience and our 
calculations. If a decision is made to introduce a new robust warhead 
into the active stockpile, decisions would have to be made concerning 
potential testing requirements.
    The Panel also recommends doing this in order to ensure maintenance 
of the technical skills needed for design of new warheads. Perhaps the 
greatest of our challenges is human capital. We need to train a new 
generation of stewards for the nuclear stockpile. This is most 
effectively done by having them work now on design of real weapons 
under the tutelage of experienced designers.
    Senator Reed. Dr. Schlesinger, you and Mr. Guidice discussed that 
the weapons programs are burdened by unfunded mandates for health and 
safety.
    Can you provide some specific examples of specific unfunded 
mandates and can you identify the source of those mandates?
    Dr. Schlesinger. The most problematic unfunded mandates involve 
direction to the laboratories and plants that must be implemented 
immediately or in a very brief period of time. Such direction involves 
actions that were not anticipated when program plans were developed and 
approved and hence can only be implemented by taking resources away 
from other weapons program activities and resources. In other cases 
these mandates involve costs that could be anticipated, but DOE has 
elected not to program the needed resources. Over the past decade, 
unfunded mandates have typically involved matters having to do with 
environment, safety, and health (ES&H) and security matters.
    In every case the organization with primary responsibility for such 
direction is the Department of Energy.
    In some instances mandates involving ES&H result from 
recommendations made by the Defense Nuclear Facility Safety Board 
(DNFSB). For example, there are 29 actions responding to DNFSB 
recommendations scheduled for implementation in 2000-2002. However, it 
remains the responsibility of the Department of Energy to manage 
implementation of such actions in a manner that is responsive to both 
the DNFSB's recommendations and the National objectives being 
accomplished in the weapons program.
    In a recent review, the National Nuclear Security Administration 
has succinctly summarized the impact that unfunded mandates have on 
critical stockpile surveillance tasks:

        Efficiency of conducting surveillance cycles and the timeliness 
        of surveillance data have been adversely affected at the plants 
        by frequent and unexpected changes in security and safety 
        requirements, facility availability, and safety authorization 
        basis changes or expirations. Programmatic needs and schedules 
        should be considered before implementing changes to facilities, 
        processes, or safety authorization basis requirements. Of 
        course, critical safety issues are paramount and must be 
        addressed as quickly as possible.\13\
---------------------------------------------------------------------------
    \13\ Strategic Review of the Surveillance Program: 150-Day Report. 
National Nuclear Security Administration, Defense Programs. January 1, 
2001.

    Many of the recent unfunded mandates involve security. Over the 
past 24 months, DOE has promulgated more than 40 new Orders, Notices, 
and other directives. Once issued, contractors are audited to these new 
standards.
    An example of an unfunded mandate involving security is the 
Secretary of Energy's 9 Point Cyber Security Initiatives and the Six 
Further Enhancements. These were required to be implemented on short 
timelines, with no immediate funding for this purpose. In the case of 
Los Alamos National Laboratory, implementation of this new direction 
entailed a cost of approximately $15M in fiscal year 2001. At Pantex 
Plant, the estimated cost was $31.5M. Some of the new standards had to 
be implemented within 14 days of promulgation. Subsequent to the 
issuance of this guidance, DOE made provision for additional funding 
for these activities; however, when initially implemented, 
reprogramming of resources within the plants and labs was required.
    Another example that had complex-wide impact was DOE direction in 
June, 2000 requiring changes in long-standing security practices. For 
example, some computer media had to be encrypted and all vaults for 
storage of classified materials continuously staffed and when not 
staffed, locked and alarmed. The time frame for implementation varied 
from immediately to 30 days.
    The age of many facilities within the complex impacts 
implementation of a DOE directive to provide for Nationally Recognized 
Testing Laboratory or Equivalent certification for electrical 
equipment. The estimated cost for only the high voltage system at 
Lawrence Livermore National Laboratory is $34M. Los Alamos National 
Laboratory's current estimate for related expenses is approximately 
$50M.
    Many additional examples could be provided. Viewed individually, 
any specific unfunded mandate may not appear significant. To understand 
the impact that these unfunded mandates have on the complex's ability 
to accomplish the Stockpile Stewardship Program, it is necessary that 
attention be given to their substance, to the circumstances within 
which they are being implemented, and to the processes employed by the 
Department of Energy in managing their promulgation and implementation.
    With respect to the substance of the direction provided in these 
mandates, there are instances in which new direction is warranted. Our 
understanding of safety, security, and ES&H matters continues to 
develop, due in large part to a vigorous research program that improves 
our understanding of potential issues. It is the objective of our 
national counterintelligence activities to improve our understanding of 
both potential security threats and appropriate countermeasures. As new 
technologies are deployed as integral parts of the weapons program, new 
measures are needed, e.g., in cyber security. Standards and 
expectations for ES&H and other matters have changed significantly in 
the many decades since some of the current facilities were constructed. 
There are, however, some situations in which required and implemented 
mandates did not add to safety or security. For such cases, it is 
important to improve the process in a manner that allows all 
stakeholders to participate in the appraisal of costs and benefits.
    There is a legitimate requirement for the Department of Energy, as 
the governmental agency responsible for all aspects of the weapons 
program, to provide top-down direction for these matters. Practices 
need to be state-of-the-art and consistent throughout the complex. It 
is also appropriate for DOE to establish milestones for implementation 
of measures to enhance safety, security, and ES&H. A past problem 
within the complex was that such issues could be identified without 
prompt action being taken to redress them.\14\
---------------------------------------------------------------------------
    \14\ In one past situation, a number of years transpired before 
action was taken to respond to a safety-related issues. Nuclear Weapon 
Safety. Report of the Panel on Nuclear Weapons Safety of the Committee 
on Armed Services, House of Representatives. Committee Print 15. 
December, 1990. p. 26.
---------------------------------------------------------------------------
    Furthermore, it is important to recognize that there can be 
exceptional situations, particularly those involving potential safety 
hazards, in which immediate implementation of guidance is imperative.
    Circumstances can make it very difficult to implement unfunded 
mandates. Key issues were identified by the Department of Energy in its 
30-Day Review:

        Additional pressures such as increased security requirements, 
        newly discovered stockpile issues, and resource limitations 
        have collectively forced the program, overall, to be ``wound 
        too tight'' with too little program flexibility or 
        contingencies. This is evident from the fact that the Campaign 
        and Directed Stockpile Work is so tightly intertwined that 
        adjustments to specific program milestones or budgets may 
        result in significant regrets for the SSP as a whole. . .\15\
---------------------------------------------------------------------------
    \15\ Stockpile Stewardship Program: 30-Day Review. U.S. Department 
of Energy. November 23, 1999. p. 7-6.

    Viewed in isolation, many of the unfunded mandate issues that might 
be identified by the laboratories and plants do not appear impressive. 
Why should it matter if 10 staff members were diverted to a new task 
for a number of months? The problem is that in a program that is 
``wound too tight'' the few people capable of performing a technical 
task are diverted in a manner that requires important weapons program 
work to halt, or be significantly delayed, until they are released. A 
similar point holds for management resources within the complex. A new 
task that might be readily managed using standard processes and 
timelines may, if immediate implementation is directed, take a number 
of key managers off-line for a period of time in a manner that has a 
negative impact on multiple activities that can no longer receive 
needed attention. Furthermore, much of the problem is due to the 
aggregate demands posed by the large number of unfunded mandates as 
opposed to mandate-specific burdens.
    Another important circumstance involves the age and deterioration 
of key facilities. We are attempting to apply modern standards in 
facilities that were designed to meet very different criteria. In many 
instances implementation is very difficult. Furthermore, aging and 
uncorrected deterioration make it more likely that issues requiring 
action are likely to develop.
    The processes by which direction is provided by DOE to the 
laboratories and plants exacerbate the problems. A important issue is 
that there have been too many personnel and organizations within DOE 
and NNSA capable of issuing guidance directly to organizations within 
the complex, bypassing line management.\16\ When this happens, 
authority and responsibility are no longer aligned. Congress has taken 
action to solve these problems through establishment of NNSA, and by 
requiring NNSA to develop an appropriate staffing and organization plan 
to identify roles and responsibilities of headquarters and field 
organizations; appropriate modifications, downsizing, eliminations, or 
consolidations of organization units; and modifications to headquarters 
and field organization staffing levels.\17\
---------------------------------------------------------------------------
    \16\ The problem that there are too many people within Defense 
Programs and measures that might be taken to simplify DOE management of 
the weapons program are addressed in The Organization and Management of 
the Nuclear Weapons Program. Paul H. Richanbach, David R. Graham, James 
P. Bell, and James D. Silk. Institute for Defense Analyses Paper 3306. 
March 1997.
    \17\ H.R. 5408, The Floyd D. Spence National Defense Authorization 
Act for Fiscal Year 2001, Section 3153.
---------------------------------------------------------------------------
    In its recent report, our Panel recommended additional actions to 
improve NNSA management that would, among other objectives, alleviate 
some of the burdens associated with unfunded mandates. Specifically, 
DOE needs to focus responsibility and authority in its line management; 
all DOE functional interactions with the weapons complex should flow 
through NNSA; and roles, responsibilities, and line management 
structures within NNSA should be aligned with the structure of the NNSA 
program.\18\
---------------------------------------------------------------------------
    \18\ Fiscal Year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001. pp. 24-25.
---------------------------------------------------------------------------
    A second set of process issues involves the manner in which 
direction is developed and communicated. A significant part of the 
problem is that direction with a major impact on accomplishment of the 
weapons program can arrive at the labs and plants with little or no 
advance notice. Modern management practices that make use of integrated 
process team (IPT) and related methods could substantially alleviate 
this problem. This would involve a team approach in which participants 
from the labs and plants would work with NNSA to give consideration to 
new direction before it is issued. This is not to say that the labs and 
plants should have a veto; the objective, rather, is to involve all 
stakeholders in a manner that crafts appropriately focused guidance 
that can be implemented in a manner that minimizes negative impacts on 
other aspects of the weapons programs. In a an extreme situation such 
advance consultation may not be possible, e.g., if a serious safety-
related issue is identified. In most circumstances, however, the Panel 
believes that such advance consultation would be practical and, given 
experience with IPTs within the Department of Defense, beneficial.
    As part of this increased collaboration, the Panel believes that 
actions need to be taken to reduce the amount of time that technical 
staffs within the complex spend on administrative actions that respond 
to DOE taskings. The Panel recommends that DOE and NNSA give immediate 
priority to elimination of two-thirds of these burdens.\19\
---------------------------------------------------------------------------
    \19\ Fiscal year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001. p. 25.
---------------------------------------------------------------------------
    The Panel also recommends that NNSA, with significant participation 
from the labs and plants, address some of the strategic issues 
underlying specific direction for matters involving security, safety, 
and ES&H. A basic issue is: What are the standards? There is nothing 
that cannot be made safer or more secure. There appear to be situations 
in which the criteria being imposed exceed or do not clearly correspond 
to law or regulation. This may, in specific situations, be appropriate. 
However, this needs to be established in a more systematic way. This 
would allow resources to be more optimally invested in a balanced 
manner, complex-wide. It would also allow potential interactions 
between standards to be identified and managed; measures to enhance 
safety may or may not contribute to improved security.Furthermore, 
there appear to be situations in which, over time, there is 
requirements creep that adds to burdens without improving safety and 
security.
    Resources are needed for implementation of new direction. Here the 
fundamental problem is a weapons program that is ``wound too tight.'' 
The Panel believes that the Department of Energy's appraisal is on the 
mark:

        . . . Flexibility and contingency is needed in both the science 
        and engineering programs and the production facilities to 
        address these issues. Indicators of stress include lower morale 
        in parts of the work force and increased difficulty in 
        recruitment of top scientists and engineers.\20\
---------------------------------------------------------------------------
    \20\ Stockpile Stewardship Program. 30-Day Review. U.S. Department 
of Energy. November 23, 1999. p. 7-6.

    NNSA/DOE needs to program funding to meet security and ES&H needs. 
Given recent experience with such mandates , it should be possible to 
estimate the magnitude of the investment that may be needed.
    Senator Reed. Dr. Schlesinger, you mentioned that a weapon has been 
redesigned to address a safety issue and as a result the reliability of 
the weapon has been reduced.
    Can you please provide some additional detail on this including 
which weapon, when was the modification made, why was the modification 
made and what was the specific requirement that drove the modification?
    Dr. Schlesinger. The point made during testimony applies to 
multiple weapons in the enduring stockpile. The reliability estimates 
for each of these weapons is classified; however, NNSA does publish 
semi-annual classified reports which you might request.
    A starting point for considering potential interactions between 
weapon safety features and weapon reliability is provided in the report 
of the Congressionally-chartered Nuclear Weapons Safety panel, which 
provides an unclassified overview of the modern approach to enhance the 
electrical safety of a nuclear weapon against premature detonation. All 
of the weapons in the enduring stockpile, except the older W62 which we 
expect to be retired, were designed to incorporate what is called 
``enhanced nuclear detonation safety'' (ENDS). The ENDS concept was 
developed to improve the predictable safe response of our weapons in 
accident environments, such as a fire. ENDS introduces three links (two 
strong and one weak) in an exclusion region within the weapon. For the 
weapon to arm, both strong links have to be closed electrically, one by 
specific operator coded information input, the other by environmental 
input corresponding to a trajectory or spin motion appropriate to the 
weapon's flight profile. The weak link is designed to open (or break) 
and thereby prevent arming if there is a temperature excursion beyond 
set bounds, as might be caused by a fire during an accident.\21\ Design 
or redesign of a weapon to incorporate ENDS necessarily adds components 
to the device. Each component that is added to a weapon is another part 
that might fail, impacting reliability.
---------------------------------------------------------------------------
    \21\ Nuclear Weapon Safety. Report of the Panel on Nuclear Weapons 
Safety of the Committee on Armed Services, House of Representatives. 
Committee Print 15. December, 1990. p. 13.
---------------------------------------------------------------------------
    The same point holds for use control or other features that might 
be added to a weapon. Particularly if these features are integral to 
the performance of the weapon, they involve additional parts that might 
fail and, more generally, add to the complexity of the device, and 
complexity can be the enemy of reliability. Furthermore, such safety 
and control features, like every other part of a nuclear weapon, must 
be regarded as limited life components that will at some point be 
replaced.\22\ Again, this adds a source a complexity with attendant 
implications for reliability.
---------------------------------------------------------------------------
    \22\ Statement by Henry G. Chiles, Jr. Before the U.S. Senate Armed 
Services Committee, October 7, 1999.
---------------------------------------------------------------------------
    In regard to plans for Life Extension Programs (LEPs) for our 
enduring stockpile weapons, over the coming year the Panel will again 
be looking at how well we accomplish safety and security in the design 
of our weapons. We need to make sure that the weapon safety and 
security improvements that are implemented do not unduly reduce our 
confidence in the reliability of our weapons. This is especially true 
if these improvements are designed into the nuclear package of the 
weapon, which cannot be tested under the current nuclear test 
moratorium.
    On this subject, an observation made in the Panel's recent report 
also merits attention: The Panel is concerned that some current 
enduring stockpile weapon designs are so highly optimized for weight, 
yield, and material usage that they provide very thin performance 
margins. These designs are fussy, and testing has revealed 
inconsistencies that are not understood.\23\
---------------------------------------------------------------------------
    \23\ Fiscal Year 2000 Report to Congress, Panel to Assess the 
Reliability, Safety, and Security of the United States Nuclear 
Stockpile, February 1, 2001. p. 13.
---------------------------------------------------------------------------
    For the enduring stockpile weapons with these characteristics, the 
complexity (and hence potential performance risk) added by safety and 
use control devices is done on top of very thin performance margins. 
The enduring stockpile weapons were never designed on the assumption 
that they would be retained beyond their originally intended service 
lives. Under these circumstances, the Panel recommends that, as a 
matter of prudence, work also be undertaken on the design of robust, 
alternative weapons that will provide a hedge.
    Looking to potential safety/reliability interactions in the future, 
a final point warrants note. The Congressionally chartered Nuclear 
Safety Panel was established in response to issues that had been 
identified in the stockpile of that time. Some of these issues were 
developed because of advances in modeling. With the advent of the first 
three-dimensional codes, it was possible to determine that some 
previous assumptions made concerning the weapons were incorrect. As the 
Stockpile Stewardship Program advances our understanding of the 
enduring stockpile weapons, it is reasonable to expect that we may 
uncover additional issues. In 1990, it was still possible to make 
significant changes to weapon designs and then test them to ensure that 
modifications did not impair reliability. For a modification that 
impacts the nuclear package of the weapon, that option is no longer 
available.

    [Whereupon, at 4:20 p.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
